<html>
<title> - OSCE EFFORTS TO COMBAT HUMAN TRAFFICKING: OUTLOOK AND OPPORTUNITIES</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                      OSCE EFFORTS TO COMBAT HUMAN
                       TRAFFICKING: OUTLOOK AND 
                             OPPORTUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2013

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 113-1-6]
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                   Available via http://www.csce.gov

                               ____________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
97-748 PDF                  WASHINGTON : 2016                      
            
________________________________________________________________________________________    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="781f0817381b0d0b0c101d1408561b171556">[email&#160;protected]</a>  
        
            
            
            
            
            
            
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey, 		ROGER F. WICKER, Mississippi, 
Chairman					Co-Chairman
ALCEE L. HASTINGS, Florida			BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama			JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas			RICHARD BURR, North Carolina
STEVE COHEN, Tennessee				JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida				TOM UDALL, New Mexico
RANDY HULTGREN, Illinois			SHELDON WHITEHOUSE, Rhode Island	
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
New York
                                 

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]


                      OSCE EFFORTS TO COMBAT HUMAN
                        TRAFFICKING: OUTLOOK AND
                             OPPORTUNITIES

                              ----------                               
September 17, 2013

                             COMMISSIONERS

                                                                   Page
Hon. Benjamin L. Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Christopher H. Smith, Co-Chairman, Commission on Security 
  and Cooperation in Europe......................................     3
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    15
Hon. John Boozman, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    16

                               WITNESSES

Dr. Maria Grazia Giammarinaro, OSCE Special Representative and 
  Coordinator for Combating Trafficking in Human Beings..........     5

                               APPENDICES

Prepared statement of Hon. Benjamin L. Cardin....................    22
Prepared statement of Dr. Maria Grazia Giammarinaro..............    23

                                 [III]

 
                      OSCE EFFORTS TO COMBAT HUMAN.
                        TRAFFICKING: OUTLOOK AND.
                             OPPORTUNITIES

                              ----------                              


                           September 17, 2013

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10:01 a.m. in room SD-106, Dirksen 
Senate Office Building, Washington, DC, Hon. Benjamin L. 
Cardin, Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Steve 
Cohen, Commissioner, Commission on Security and Cooperation in 
Europe; and Hon. John Boozman, Commissioner, Commission on 
Security and Cooperation in Europe.
    Witnesses present: Dr. Maria Grazia Giammarinaro, OSCE 
Special Representative and Coordinator for Combating 
Trafficking in Human Beings.

 HON. BENJAMIN L. CARDIN, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cardin. Well, good morning, everyone. Let me welcome 
you to this hearing of the Helsinki Commission. I'm very 
pleased to be joined by the co-chair of the Commission, 
Congressman Chris Smith, who is very familiar with the subject 
that we have on today's hearing, and that is to get an update 
from the Special Representative and Coordinator for Combating 
Trafficking in Human Beings, Dr. Giammarinaro. It's a pleasure 
to have you here, and we thank you for your extraordinary work 
in this issue.
    I am extremely proud of the role that the U.S. Helsinki 
Commission has played in bringing to the world's attention 
modern-day slavery in human trafficking. There's been no 
greater champion of that cause than Congressman Smith during 
his many years of leadership on this Commission and his work in 
the United States House of Representatives.
    We are proud that as a result of our leadership, our own 
country has taken a strong leadership on dealing with the 
trafficking issues. The TIP Report that came out as a result of 
the work of our Commission and passage of legislation gives a 
road map to evaluate, on an objective status, how well 
countries are doing in meeting their responsibilities to combat 
trafficking.
    It has led to in our own country adoption of stronger laws, 
both at the federal level and at the local level. We have seen 
international action dealing with the issues of trafficking, 
from better training of law enforcement to enactment of local 
laws to the type of leadership from countries that make it 
clear that they won't tolerate trafficking. That's all come out 
as a result of the work of the OSCE and the work of our 
Commission.
    We have been in the forefront to make it clear that those 
who have been victimized are not treated as criminals. And 
that's been one of our principal objectives, and we have come a 
long way in that regard.
    We have also made it clear it's not just the origin country 
but it's us, the destination countries and the transit 
countries, that have responsibility to be involved in dealing 
with trafficking.
    One of the actions that came about as a result of the 
attention placed on human trafficking was to develop the 
special representative and coordinator for combating 
trafficking in human beings. And therefore we are so pleased 
that she is here.
    We also have a special representative of the Parliamentary 
Assembly, who happens to also be here today, the co-chairman of 
the Commission, Chris Smith.
    So we are, I think, indeed very fortunate to be able to 
have this hearing today, where we can get an update of where we 
are and plan to how we can improve a strategy moving forward, 
because we are looking at what is the next level of action in 
order to continue the progress that we have made.
    In 2010 there was a hearing held that I chaired of the 
Helsinki Commission, in which you were here, and you gave us an 
update at that time. Well, much has changed in a short time 
since 2010 in terms of the global awareness of the scourge of 
modern-day slavery, but also the sophistication of the methods 
employed by traffickers to exploit the vulnerability. Countless 
men, women, and children have faced the brutality of 
trafficking firsthand, aside from the social and economic costs 
that extend beyond their captivity.
    We must remain resolved and resolute in demanding immediate 
action from governments around the globe to support civil 
society's efforts and ensure swift punishment of traffickers to 
interrupt this violent cycle of exploitation. OSCE initiatives 
are helping us take this action.
    Since your last appearance before the Helsinki Commission, 
you have been honored as a 2012 Trafficking in Persons Report 
Hero by Secretary of State Hillary Clinton, and we congratulate 
you on that honor. You've traveled extensively to contribute 
your expertise and leadership around the globe. And we are 
honored to have an opportunity for a candid discussion about 
the accomplishments during your term and how the OSCE has risen 
to the challenge by facing the evolving methodologies of 
traffickers with innovative research, country visits, and 
regional training.
    Before calling on the special representative, let me yield 
to the co-chair of the Commission, Congressman Smith.

HON. CHRISTOPHER H. SMITH, CO-CHAIRMAN, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Smith. Thank you. Thank you very much, Mr. Chairman. I 
have a little bit of laryngitis today, so I'll be relatively 
brief. I want to thank you and Dr. Giammarinaro, the OSCE 
special rep and coordinator for combating trafficking in human 
beings since 2009.
    Since her term will be ending in February of 2014, this 
hearing doubles as an opportunity to recognize her 
extraordinary achievements and thank her for having been 
unfailing in compassion and diligent in her efforts to end 
trafficking in the OSCE region. She has been remarkably 
effective in guiding and holding accountable the OSCE 
participating and partner states.
    I want to thank you for your public and behind-the-scenes 
efforts to inspire, instruct, and move OSCE states to 
intelligently fight domestic and international human 
trafficking. We could not have asked for a special rapporteur 
with more dedication, passion, political acumen, and expertise. 
Your tenure has been marked with demonstrable progress 
throughout the region and many grateful trafficking victims. 
Thank you for a job well done.
    Fortunately for us, you're not quite finished yet, and all 
of us hope that when you do leave this posting, that you will 
continue on in this work. But later this year at a ministerial 
meeting in Kiev, the OSCE will be adding an addendum to the 
2003 OSCE action plan to fight trafficking in human beings. I 
hope many of the best practices you have identified and 
developed during your tenure will be captured in the addendum.
    I would also like to suggest the inclusion of best 
practices to prevent trafficking on commercial carriers and in 
hotels. Experts estimate that 600,000 to 800,000 trafficking 
victims are moved across international borders each year, often 
on commercial airplanes, trains and buses, where they come into 
contact with transportation officials and professionals. 
Traffickers can be stopped, and victims rescued, through highly 
effective low-cost training to flight attendants and other 
airport personnel, training such as developed by the U.S. 
Department of Homeland Security and Nancy Rivard, the president 
of Airline Ambassadors International.
    As the special rep for human trafficking for the 
Parliamentary Assembly, I was pleased to present--and I 
literally, you'll recall, sat right next to you, Doctor--to 
present and promote these best practices at the high-level OSCE 
conference in Kiev in June of this year, along with Nancy 
Rivard. Hundreds of victims have been rescued already, with the 
potential of thousands more.
    My supplementary item on this topic, entitled Trafficking 
Victims Watchfulness: Planes, Trains, Buses and Hotels, as you 
probably know, was adopted at the OSCE PA annual session in 
Istanbul in July and calls on participating states to 
collaborate with commercial carriers, adopting legislation, 
where necessary, in order to ensure that transportation 
professionals who are likely to come into contact with a 
trafficking victim are trained to identify the victim and 
respond according to a protocol established with law 
enforcement.
    The supplementary item also calls on participating states 
to collaborate with hotel and travel industry professionals, 
adopting legislation--again, where necessary--to ensure the use 
of best practices for the prevention and identification of 
human trafficking in hotels.
    Finally, the supplementary item underscores the importance 
of law enforcement coordination with the private sector in 
order to ensure appropriate interventions. A single regionwide 
trafficking hotline connected to law enforcement would be very 
helpful toward ensuring that everyone knows who to call, no 
matter where they are.
    Fortunately, several industry leaders have emerged and 
developed best practices in this area of trafficking victims 
watchfulness. Airlines such as Delta and American Airlines, 
British Airways and Virgin Atlantic, as well as trained service 
providers, such as our own Amtrak here in this country, have 
begun human trafficking prevention activities. Hotel chains, 
including Hilton Worldwide, Hyatt, Accor, Carlson and many 
others, have committed to training their employees. Airline 
Ambassadors, ECPAT and the Global Business Coalition Against 
Trafficking are offering low-cost tools.
    With a little encouragement from the OSCE, participating 
states can transform transportation and hospitality industry 
standards such that anti-trafficking training is ubiquitous. In 
other words, it should be everywhere.
    Over time, as the pimps and exploiters get caught and 
jailed, the added positive consequence of trained flight 
attendants and others will have a profound chilling effect on 
the traffickers' ability to move victims from one place to 
another.
    With this in mind, I respectfully request that you support 
the inclusion of these best practices in the upcoming addendum 
of the action plan.
    I would also hope you will keep in another best practice 
that has developed in the United States, that of 
interdisciplinary community task forces. Such task forces can 
be an effective tool in identifying and reaching out to 
vulnerable and underserved groups in the community, such as the 
Roma.
    In 2012 the OSCE PA adopted our supplementary item on 
protecting vulnerable populations from human trafficking, which 
called on participating states to focus their victim response 
on vulnerable populations such as the Roma population. As you 
know, the Roma population has been trafficked at 
disproportionately high rates and have disproportionately low 
access to services due to marginalization.
    The supplementary item urged participating states to 
establish in major cities special Roma-oriented task force 
comprised of Romani NGOs, Romani mediators and Romani community 
representatives, along with member state law enforcement anti-
trafficking authorities.
    The 2013 Trafficking in Persons Report, required by the 
legislation that I offered by back in 2000, known as the 
Trafficking Victims Protection Act, produced by the U.S. 
Department of State, highlighted notable efforts among OSCE 
participating states to address the vulnerable Roma population. 
The report also noted populations of Roma are vulnerable to 
trafficking in 17 OSCE participating states. I believe efforts 
to assist these vulnerable people would be enhanced by 
implementing community task forces, and I hope this will be 
part of the addendum.
    I thank you again for your extraordinary leadership and 
look forward to your testimony.
    Mr. Cardin. Thank you, Chairman Smith. And again, I applaud 
your leadership in this area and the action of the 
Parliamentary Assembly in supporting the work of the special 
representative.
    Dr. Giammarinaro, again, it's a pleasure to have you here. 
We very much appreciate your leadership. And as Congressman 
Smith has pointed out, we are looking towards how we move to 
the next chapter. Tremendous progress has been made, but we 
need to make more progress. So we welcome your comments.

DR. MARIA GRAZIA GIAMMARINARO, OSCE SPECIAL REPRESENTATIVE AND 
     COORDINATOR FOR COMBATING TRAFFICKING IN HUMAN BEINGS

    Dr. Giammarinaro. Honorable Chairpersons and honorable Co-
Chairmen, first of all, let me thank you for the invitation and 
for your kind words. I'm honored to testify today for the 
second time before the Helsinki Commission of the United States 
Congress in my capacity.
    In 2003, as you know, the position of Special 
Representative and Coordinator for Combating Trafficking in 
Human Beings was established as a high-level mechanism to 
promote the implementation of the OSCE Action Plan and other 
commitments on combating trafficking in human beings in all the 
now 57 participating states. The mandate of the special 
representative is to work with the representatives of 
governments, parliaments, as well as judiciary and civil 
society, to catalyze the exchange of best practices; to provide 
technical assistance when requested, especially in the field of 
training and capacity building; to report on anti-trafficking 
developments in the OSCE region; and to raise the public and 
political profile of the fight against trafficking in human 
beings.
    And I have to say that since 2000 the OSCE has adopted 
important political commitments on an almost yearly basis, and 
so did the Parliamentary Assembly of the OSCE, to continually 
strengthen our efforts to combat trafficking in human beings. 
This includes the 2011 Vilnius Ministerial Declaration on 
Combating All Forms of Human Trafficking, co-sponsored by the 
United States and the Russian Federation, which acted as a 
catalyst for our office to intensify its activities in many 
respects and reaffirmed our full commitment to the Universal 
Declaration of Human Rights, which reads, ``No one shall be 
held in slavery or servitude; slavery and the slave trade shall 
be prohibited in all their forms.''
    I have served now for three and a half years as the special 
representative of the OSCE. I took office in March 2010, and my 
mandate will expire in March 2014. And so it is a good 
opportunity for me to look back and to look ahead to the 
future. And I'm really delighted and honored to share with you 
some thoughts about my assessment of the state of play and some 
ideas for future work.
    It is clear that many efforts, as you said, have been made 
by governments of the participating states throughout the OSCE 
region since 2000, with the fundamental contribution of NGOs, I 
have to say, of various orientation and inspiration, as well as 
with the support of international organizations, including the 
OSCE Office of the Special Representative and the OSCE Office 
for Democratic Institutions and Human Rights, the human rights 
institution of the OSCE, the ODIHR.
    Over this period there have been many visible and 
encouraging achievements. The key indicators of the level of 
political will have been increasing. These indicators include, 
for example, the ratification of international instruments, the 
adoption of national legislation, the establishment of national 
anti-trafficking mechanisms and the allocation of adequate 
financial and human resources for their implementation. All 
these indicators are positive.
    Since 2000, the vast majority of the 57 OSCE participating 
states have integrated anti-trafficking legislation into their 
national legal framework, meaning that almost all have specific 
legal provisions on combating trafficking in human beings, 
mostly complying with the international standards, especially 
with the protocol, the so-called Palermo Protocol supplementing 
the Convention on Organized Crime.
    Another important indicator of the political will is the 
establishment, as I said, of anti-trafficking machinery and the 
allocation of sufficient resources. I have to say that a 
majority of participating states have set up anti-trafficking 
national coordination mechanisms and national referral 
mechanisms for the assistance and protection of victims and 
have established the action plans, action plans with clear 
identified responsibilities for all the competent authorities, 
especially government authorities. And I'm very proud to say 
that the OSCE has been instrumental to this process. Now we can 
say that we have functioning mechanisms everywhere. And this is 
of course the precondition for further to achieve the results 
in the future. Not only do we have mechanisms on paper and 
legislation on paper, but we have really functioning 
mechanisms--in other words, in every country, there are a 
certain number of cases brought to the court, there are a 
certain number of victims identified and assisted, so 
functioning mechanisms.
    Regarding the activity of the Office of the Special 
Representative and the work we have tried to carry out, to 
cooperate, to help participating states to carry out their 
tasks, I would like to mention, first of all, awareness 
raising. Awareness raising is always, I think, an essential 
component of anti-trafficking action. Differently from the 
anti-slavery abolitionist, the historical abolitionist 
movement, we have to show that slavery exists, and this is not 
taken for granted, and not everybody is aware of the fact that 
working conditions comparable to slavery still exist and they 
are even growing globally.
    So this is the reason why we have engaged with the media, 
with the journalists, especially young journalists, 
investigative journalists, to promote further action in this 
field and to promote a correct and effective way to report 
trafficking cases. This is not always the reality. The reality 
is that, for example, the press reports about a case of 
trafficking just saying how many people have been arrested--
and, of course, this is very important, but no one single word 
is devoted to the destiny of the victims, for example. And this 
is of course something that should be corrected.
    We have, for example, promoted an important project in 
cooperation with the Moscow State University's faculty of 
journalism. The university taught a year-long course to its 
journalism faculty on reporting human trafficking issues. And 
we published a course book based on this material earlier this 
year together with the university and the Russian Union of 
Journalists, and this was partially funded--the journal is 
funded by the United States.
    I would say that the United States has played a key role in 
increasing awareness all over the world, not only through the 
annual Trafficking in Persons Report and the work of many 
dedicated government officials and legislators at the national, 
state, and local level--and I would like to take this 
opportunity to thank Ambassador Luis CdeBaca for his leadership 
in this field--also I would like to mention the fact that the 
support given to the work of numerous NGOs active in the field, 
all over the OSCE region, is support given by the United 
States. This has led to increased understanding by policymakers 
and legislative reform, improved co-operation among 
stakeholders, better statistical knowledge and understanding of 
trafficking in human beings on the basis of concrete evidence, 
increased training and educational activities, and improved 
identification and protection of victims of trafficking.
    The second area I would like to mention with a particular 
emphasis regarding the activity of my office is cooperation. We 
have worked a lot to promote better cooperation in the OSCE 
region, cooperation between participating states. And I would 
like to mention the CIS Program of Cooperation to Combat 
Trafficking in Human Beings, 2011, 2013, which is an advanced 
document. And of course, we encourage all the CIS countries to 
work for an effective implementation of this important program. 
Another regional good practice is the development of 
transnational referral mechanisms for the protection of 
trafficked persons, an effort which builds on the OSCE/ODIHR 
work on national referral mechanisms and which was funded by 
USAID.
    We are promoting cooperation also beyond the borders of the 
OSCE region, especially concerning our Mediterranean partners, 
our six Mediterranean partners for cooperation and our Asian 
partners for cooperation. Concerning the Mediterranean 
partners, we are in the process of promoting closer, better 
dialogues between the two rings of the Mediterranean Sea on 
cases of trafficking that so far have been dealt with mostly in 
the framework of smuggling of migrants or irregular migration. 
But if we see the horrible cases of exploitation, for example, 
in agriculture in the Southern European countries, we can 
understand very well that there is a link, there is an obvious, 
obvious link between a first phase of the migration process 
that can be consensual, can be facilitated by criminal gangs, 
but once people are in the destination country, there are 
intermediaries, criminal intermediaries that place migrants in 
exploitative situations, and there are a number of 
investigations going on in different countries of the southern 
part of the EU showing that this is an increasingly worrying, 
worrying trend.
    The Partners for Cooperation in Asia have launched an 
important reflection on trafficking, culminating in a very 
interesting conference held in Australia this year. And I have 
devoted particular attention to cooperation with this partner, 
speaking at conferences and cooperating with them in many ways.
    What are the challenges? We have talked about achievements. 
What are the challenges? I would like to mention, first of all, 
the dimension of trafficking human beings, a dimension which 
was not in our radar when we started our anti-trafficking 
action in the late '90s. We have now reliable estimates issued 
by the International Labor Organization. These are conservative 
estimates, so we have to think that the 21 million people 
globally finding themselves in a situation of forced labor or 
trafficking in human beings are a minimum of what we can think 
is the real number. In the OSCE region, we are talking about 
something like 3 million people. So we have to deal with 
something new that requires different responses. Probably we 
still have to better elaborate, better understand how we can 
deal with this massive scale phenomenon. This is the first 
challenge.
    The second challenge, due to a new trend of trafficking, is 
the fact that the forms of exploitation--we are now aware that 
the forms of exploitation are innumerable. I'm not talking only 
about trafficking for labor exploitation, but, together with 
trafficking for sexual exploitation, remain the most 
[wide]spread forms of trafficking. But I'm talking about 
trafficking for begging, for first in organized begging, which 
is apparently increasing and involves mainly children, 
particularly vulnerable victims, children marginalized in 
vulnerable communities, such as the Roma and Sinti, which are, 
as Honorable Smith said, particularly and disproportionately 
affected by trafficking in human beings. I'm talking about the 
so-called trafficking for forced criminality--in other words, 
people trafficked to commit crimes and to replace somehow, if I 
can use this expression, to replace traffickers in the criminal 
behavior and possibly also in the punishment, because of 
course, victims are put in the forefront, in the most exposed 
situation, and are very easily identified by law enforcement 
and treated, again, as criminals instead of being treated as 
victims.
    I'm talking about trafficking for the purpose of the 
removal of organs. Until very recently, we were not really sure 
that this form of trafficking was really significant. Now we 
have issued recently a new publication on a number of 
investigated cases in the OSCE region. We have analyzed 11 
cases, but we are aware of more. And now we can say that 
trafficking in human beings for the removal of organs exists, 
unfortunately, that have specific features, a huge criminal 
network, which is global and involves, at least in different 
ways, of course, as nationality of the beneficiaries, the 
nationality of the donors, victims, or places in which the 
surgery was carried out, one-third of the OSCE countries. And 
so we can say that it is.
    So we have to admit that today, when we talk about 
trafficking in human beings, we are talking about a sort of 
umbrella definition, and under which there are different forms 
of trafficking implying different issues that have to be dealt 
with in an appropriate way. So when we think about training of 
the public officials involved, we have to think about something 
more complex than what we had in mind a few years ago. For 
example, we have to think about involving health care 
officials, about involving the community of certain kind of 
professionals involved in a particular sector of trafficking. 
And this makes our task and the task of competent authorities 
much more complex and difficult. From this point of view, I've 
been saying that probably we need a sort of shift in our 
perception of trafficking human beings and a shift in how we 
see the next phase of anti-trafficking action.
    Just not to be too long and boring--[laughs]--I tried to 
summarize what my excellent collaborators wrote for me. In 
other words, I think that we have to consider trafficking human 
beings in this global, massive scale more and more a problem of 
social justice. We have to promote a more fair society in which 
there's no place for tolerance toward exploitation, in which a 
worker's rights are better protected, because this is the first 
prevention measure that we can think about when we have to deal 
with this massive phenomenon.
    Secondly, I think that we have to address not only 
trafficking in the sense of identified cases, because there are 
a number of reasons why a case is not always--or I would say, 
sometimes rarely qualified as trafficking, because of the 
difficulty in the process of gathering evidence, because the 
definition is complex, because the prosecutors prefer to bring 
to the court a case which is for a less serious crime, in which 
the indictment is for a less serious crime, just to be sure to 
obtain anyway a conviction. There are a number of reasons why a 
case which shows clear indications of trafficking is not 
qualified as such--with all the consequences for the victim, 
because the victim in this case is deprived of the assistance 
and protection the person would be entitled to under the 
trafficking regulations.
    So we have to think that it is necessary to address a 
broader area of exploitation, not necessarily with the same 
tools, the same way, but for example, we have to think about 
how to promote access to justice of exploited people, because 
this is also a way to encourage them to come forward and report 
exploitation they have been subjected to.
    Unfortunately, we have to say that in many, many 
situations, the only result of labor checks or migration checks 
is that people who are in a situation of exploitation--we don't 
know if this amounts to trafficking or not. We don't know yet. 
But the immediate result is just the deportation if they are 
migrants, the deportation of the workers.
    And I would like to say that we still have a big problem 
of--we can say there is a certain reluctance of competent 
authorities, especially immigration authorities, to apply the 
regulation concerning, for example, the reflection period, 
concerning residence permit of or authorization to stay at 
least for the duration of proceedings, and that allowing the 
person to get the payment of the salaries, to get compensation. 
And there sometimes I wonder whether we can really say that 
trafficking is a priority.
    Mr. Cardin. Let me ask you, if you could, to summarize. I 
want to leave time for questioning, so if you could summarize 
the rest so we can----
    Dr. Giammarinaro. Yes, exactly. So what I think is that 
looking at the future, we need a sort of second wave of 
commitments in which there is a clear multidisciplinary 
approach to trafficking in human beings, in which there is a 
clear identification of all the cross-cutting issues, because 
of course we have to be aware that we have to deal with 
migration policy, labor market policy, child protection 
systems, all the broader areas that we have to address to make 
trafficking more visible and more understandable and to make 
the anti-trafficking measures more effective. Thank you.
    Mr. Cardin. Well, thank you very much for that summary.
    We've been joined by Senator Boozman. We've been joined by 
Senator Whitehouse and Congressman Cohen. So we appreciate all 
the Commission members who are here.
    Let me start, if I might, with one of the strategies that 
our Commission has used over the years is that we think it's 
important to put a spotlight on those that are not doing what 
they should be doing. And that was the genesis of the TIP 
Report, which names specific countries, talks specifically 
about how we rate them and where they need to improve. I must 
tell you when I meet with representatives from other countries, 
the TIP Report is frequently mentioned. I chair the 
Subcommittee on East Asia and the Pacific, and when the 
representatives from those countries come into my office, the 
TIP Report's on my desk, and it's one of the issues that they 
talk about frequently.
    So I guess my question to you is, how useful has the TIP 
Report been in the work that you do, and are there suggestions 
that you might have as to how we can have a more effective way 
of pointing out to countries what they need to do to improve 
their record in combating trafficking?
    Dr. Giammarinaro. The TIP Report is of course one of the 
most reliable sources--and this is the first thing I would like 
to underline--a reliable source of information about every 
country, not general information but very specific in the 
different areas of trafficking and anti-trafficking action. And 
I think that there is also an effect of--this is what I see in 
the OSCE region, at least--sort of a positive competition, in 
the sense that a country is very pleased when, for example, the 
country advances in the score, in the evaluation of the TIP 
Report. So this has been a real incentive, a real input for 
countries to do better. Of course, I am aware that this 
methodology is effective, and in fact, I underline this 
positive competition.
    Of course, this is not our methodology. This is not our 
methodology because the OSCE is an organization--a consensus-
based organization, so our methodology is rather to encourage 
participating states to do better. But I have to say that I 
have developed the methodology of country visits lately. 
Especially during the past two years, I have carried out many 
country visits. And something that is absolutely new is the 
fact that the report, including the recommendations and 
including an evaluation of what every single country has done, 
is made public.
    Mr. Cardin. So you will be leaving this post in the not too 
distant future, and we--I join with Congressman Smith--it's 
going to be an incredible loss, and the person who follows is 
going to have large shoes to fill.
    The OSCE has many strengths, but it is very bureaucratic. 
The agencies that provide support watch their turf very 
carefully and are always suspicious of special representatives. 
Vienna is not known for its speed or its transparency in doing 
business.
    Do you have any observations for us as to ways that we can 
make the OSCE structure more effective in dealing with the 
issue of trafficking?
    Dr. Giammarinaro. Well, I have to say that the OSCE is, if 
I can say like this without being--nondiplomatic, less 
bureaucratic than other international organizations. 
[Chuckles.]
    Mr. Cardin. That may be a compliment. We'll see. I mean--
[laughter]--we've had our problems with all international 
organizations, that's true, and Americans are somewhat 
impetuous. So I understand our desire for action.
    But I must tell you, the lack of transparency in Vienna--
the consensus has worked, but when you see key positions 
blocked for a long period of time and when you see the support 
agencies sometimes arguing more about turf than substance, it 
is somewhat frustrating because people are in desperate need of 
the type of leadership that we can provide.
    Dr. Giammarinaro. I have to say that of course, this is, 
you know, a big problem, and this is--[chuckles]--our daily 
struggle, to make the organization more effective. And one of 
the ways to make the organization more effective is to 
potentiate, to strengthen the executive structures, because of 
course the operational side of the work is carried out by the 
executive structures, including the secretariat, but not only.
    I mention also the ODIHR, the Institution for Human Rights. 
And the Institution for Human Rights has the added value of 
independence, so it can carry out activities, projects or 
political activities in a way which is very effective.
    I would like to say that to strengthen the operational 
capacity of the OSCE, there are two preconditions. One is 
financial resources. Unfortunately, we are in a very difficult 
situation from this point of view. Participating states are 
asking more from the executive structures, but the resources 
are decreasing dramatically. And I would like to say that from 
this point of view--I mean the future is not really--I don't 
look with optimism from this point of view.
    Mr. Cardin. Well, we've had at least some----
    Dr. Giammarinaro. And the second element is the field 
operations. The field operations are an enormous added value 
for participating states in terms of possibility to cooperate 
and to help in the process of implementing legislation, for 
example, which is always a very difficult point.
    So in a few words, I would like to say that participating 
states should clearly, clearly decide that this organization 
should be strengthened.
    Mr. Cardin. Thank you. I just was making an observation. I 
think there's been progress made on the openness of the budget 
process. It's still far from resolved, the types of commitments 
that the participating states need to make, and the consensus 
issue still makes it challenging to get the long-term 
commitments to priorities. But I think your points are well 
taken.
    I want to ask one last question dealing with a subject that 
you brought up, on begging, where very young children are sent 
out and doing things that are really disturbing. I would like 
to get your recommendations, not necessarily this moment, as to 
a strategy to deal with this. Are we talking about parents that 
require their children to go out to beg? If that's the case, 
then we need to strengthen our domestic laws on protecting 
children. Or are these enterprises that have set up that 
basically exploit young children in an effort to send them out 
to beg with certain penalties or rewards based upon what they 
do in a particular day? Is it connected also to the young 
pickpocketers that we see in many of the vulnerable areas in 
the OSCE and elsewhere?
    I really would hope that we could develop a strategy under 
the umbrella of trafficking to see whether we need to 
strengthen laws, strengthen attention, but to deal with this 
problem I think all of us have seen during our travels and have 
seen, quite frankly, in the United States at times, and what we 
can do to strategize to protect very young children.
    Dr. Giammarinaro. It is indeed a very complex issue. We 
have to distinguish cases in which a child is begging with the 
whole family as a survival strategy, but he is or she is not 
subject to mistreatment. In this case, I wouldn't say that this 
is a case of trafficking. Of course we have to deal with this, 
but not necessarily in terms of a criminal sanction. When we 
talk about trafficking, we talk about a very serious crime.
    There are situations in which the whole family is enslaved 
and has to beg for the profit of a criminal gang or an 
individual exploiter. In this case, of course, we are in a 
situation of trafficking human beings. I don't exclude that 
even parents could be considered traffickers and exploiters in 
the sense of trafficking, because when parents use the same 
methods as exploiters--for example, if the child doesn't bring 
home the amount of money that the exploiter or even the parent 
decides is his work performance of the day, the child is 
beaten, for example. In this case, I would say that even a 
parent can be considered liable for trafficking human beings.
    But the problem is that we should have law enforcement 
adequately trained to identify every single situation case by 
case and adopt the solutions that are adopted. Unfortunately, 
in many, many situations I have to say that in the real world 
there is a large tolerance and nobody is really checking what 
is the situation of children begging.
    Mr. Cardin. Thank you. Congressman Smith.
    Mr. Smith. Thank you very much. Again, I apologize for my 
laryngitis here.
    Great testimony, as always. Thank you again, as I said in 
my opening, for your extraordinary leadership. And I think we 
ought to recognize again this year the chair-in-office from 
Ukraine, Kozhara, and Ambassador Motsyk, who have done, I 
think, a magnificent job. Their Kiev conference certainly was a 
good best-
practices conclave, and I think many people came away further 
remotivated but also with a sense of new directions to take.
    And if you could, one of the points that I stressed at that 
conference was the importance of the flight attendant training, 
if you might want to speak to that, how well you think that 
might help. Every trafficking victim at some point has to be 
transported. And if we could interdict during that point of 
transportation of this person who's been turned into a 
commodity, I think we could seriously dent these trafficking 
enterprises, these nefarious enterprises.
    Secondly, if I could--I know that you have gone to several 
countries on your country visits, maybe you might want to speak 
to that, how well or poorly your recommendations are received. 
I know you've been to Bosnia, I think it was last year. I've 
been to Bosnia. I've been to the shelters there. I've been to 
shelters all over the world, from Peru to Ethiopia, to Nigeria, 
to shelters in Romania, in your home country of Italy, 
particularly in Rome. And one of my biggest takeaways has been 
the extraordinary efforts made by the faith-based community to 
meet the women--and they're mostly all women who are in these 
shelters--deal with emotional trauma that is so deep that 
without a spiritual component, it is unlikely she will find the 
kind of healing that she absolutely is entitled to.
    And I'm wondering--I know that there are some folks that 
look at faith-based participation in the trafficking effort 
with a jaundiced eye, particularly shelters. I've actually had 
arguments with them. But I have seen the difference. And 
nothing against the secular-based shelters, they're needed and 
they're doing a great job, but that faith-based overlay of 
healing--I met women in your capital city of Rome--I'll never 
forget it, women who had been trafficked, one from Romania, 
another one from Nigeria. And the Nigerian woman--her name was 
Elizabeth--told the story that she had been trafficked for five 
years, didn't want to come in from the street because she had 
had a witch-doctor ceremony performed on her in Benin City 
before she left and thought that horrible consequences would 
come to her if she left that terrible life.
    But she talked about how the sisters--Sister Eugenia, who 
I'm sure you know--had just been such a source of strength. And 
so my question would be the importance of faith-based 
involvement in our anti-trafficking efforts.
    And finally, you talked about the victims--two finals. One 
would be a hotline, a more serious effort to have a hotline 
within the OSCE region so that one call would then be 
transferred to help that person either get saved from that 
situation or get help in some other way, get law enforcement 
there.
    You mentioned 3 million victims within the OSCE. I wonder 
if you could break that out to how many are labor, sex 
trafficking; how many organ-trafficking problems do you think--
what's the estimate there; and of course, some of the labor and 
sex trafficking are combined. But just some kind of breakout as 
to how many fall into each category.
    Dr. Giammarinaro. Thank you for this question so that to 
give me the opportunity to talk about our current work to 
promote an addendum, an update to the OSCE action plan. Why an 
addendum? Because we think that the OSCE action plan is still a 
valid document. The approach is a human rights-based approach. 
It's still valid. And this still needs implementation in 
certain areas.
    But it is also true that since 2003, many things have 
happened, and we have gained experience. There are new ideas. 
And this could be useful if reflected in a document 
complementing the action plan. So the Ukrainian chairmanship is 
committed to this process. And we are cooperating with the 
chairmanship, giving a number of inputs and ideas.
    In practice, what are the main ideas we are discussing 
right now? We are discussing about strengthening the chapter on 
prevention, because we think that prevention would be more and 
more strategic in the fight against trafficking human beings. 
And this includes many areas, including the promotion of 
public-private partnership, including with commercial carriers, 
airlines, hotels, et cetera, because of course we are aware 
that there are very good opportunities to identify at an early 
stage trafficking cases on the borders, especially when 
children are involved, because with children, the indicators 
are more clear and more easily identifiable, if there is 
trained staff in a position of recognizing these indicators.
    But I talk about the cooperation with the private sector 
regarding, for example, how to keep the supply chain clean from 
forced labor and trafficking without the action that can be 
adopted, not only code of conducts as window dressing, facade 
operations, but, for example, a monitoring mechanism to verify 
the level of compliance of subcontractors with the regulation 
that the main enterprises have adopted.
    For example, we are working--and this is a good opportunity 
for me to mention this, and it's an important area of my work--
to prevent domestic servitude, which is a particularly hidden 
form of trafficking, but really affecting victims in a horrible 
way. We have carried out research, recently published, showing 
that many victims of trafficking show the same symptoms as 
victims of torture. In other words, there are forms of violence 
that are comparable or even legally qualifiable as torture.
    And not surprisingly, the vast majority of analyzed cases 
are cases of trafficking for sexual exploitation and cases of 
domestic servitude, in which very often extreme labor 
exploitation is associated with sexual exploitation. And we are 
working to prevent domestic servitude, especially when it 
happens in diplomatic households, when the victim is at the 
mercy of the employer because her or his resident status is 
linked with this particular employer in the vast majority of 
countries, and when, of course, the diplomatic immunity makes 
it impossible for the victim to access remedies.
    So we are promoting dedicated workshops involving the 
protocol services of the ministries of foreign affairs to 
disseminate good practices, including U.S. good practices, to 
prevent this form of trafficking. This would be, of course, 
also reflected in the addendum, but for example, also the 
monitoring of recruitment agencies, because recruitment 
agencies are very often the criminal segment of the trafficking 
chain, placing people in a fraudulent way in exploitative 
situations.
    The second line is the idea is to strengthen the 
commitments on the repressive side, the law enforcement and 
judicial side, especially concerning the link between 
trafficking and financial re-investment and the subsequent 
money laundering. So in other words, the idea to go after the 
money to identify trafficking cases and to seize and confiscate 
the proceeds of crime--also to ensure that victims have 
compensation after the crime.
    And the third is to enhance victim assistance and access to 
justice. In other words, we are aware that in many countries, 
still, the possibility to access assistance is made in practice 
if not in the regulation, if not on paper, is made conditional 
to early reporting and giving testimony from the side of the 
victim.
    Everybody dealing with victims know that traumatized 
people--people going through such a horrible experience are 
very often not--absolutely not in a position to give a 
testimony at an early stage. So we have to go the other way 
around--we have to ensure assistance, and then we can expect 
the victim will cooperate, and in the vast majority of cases, 
they will cooperate--they are cooperating. So we would like to 
strengthen the commitments on the so-called unconditional 
assistance and access to legal counseling and free legal 
counseling and representation for the purpose of obtaining 
compensation.
    Mr. Smith. Real quick on the faith-based----
    Dr. Giammarinaro. Yes, faith-based organizations--as you 
know, I also the special representative of the Alliance Against 
Trafficking in Persons, which is a platform for cooperation 
with our international organization and NGOs, and we have 
recently enlarged the partnership, and we have, in the 
alliance, the (CTME ?), which is the association of group of 
faith-based organizations, including Caritas, including 
Catholic organizations, protestant organization et cetera, 
because we are aware that they are doing well. They are doing a 
great job in many, many countries, and we are also involved in 
a number of activities at the national level in which there is 
excellent cooperation between faith-based and secular 
organizations. So I think that this is the right way to go 
ahead.
    Mr. Cardin. Thank you. Congressman Cohen.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you, Senator. I'm curious about the organ 
slavery. We've had some letters, and I know China is a little 
bit beyond our jurisdiction, or not germane, per se, but about 
the Falun Gong and organ harvesting--how does this occur in our 
regions? I mean, are people kidnapped and then they--what 
happens?
    Dr. Giammarinaro. What happens is that the so-called 
broker, which is actually the boss of a big criminal network, 
has at his disposal a number of people, a number of recruiters, 
which means people going to the very poor and villages, 
destitute communities, and explain that there is this 
possibility to donate an organ for money, and that they will 
gain very good money. So it is a fraudulent recruitment, at 
least in the cases we have analyzed.
    These are 11 cases--not very many--so we don't know what is 
the real dimension, to answer your question. But this is very 
clearly the tip of an iceberg, and we don't know what is. But 
in these cases, the recruitment was a fraudulent recruitment. 
So the person was never aware of the real impact on health of 
the donation of an organ.
    Mr. Cohen. Right, but it's--financial is the incentive. 
It's not--they don't kidnap people and then----
    Dr. Giammarinaro. No, no.
    Mr. Cohen. It's financial. And where are these 11 cases? 
It's not a very large focus group, but nevertheless.
    Dr. Giammarinaro. The surgery took place, in this case, in 
Moldova, if I remember well. I could be wrong, but what I 
remember is Moldova, is Ukraine and Kosovo for sure. With the 
involvement of doctors, surgeons of different nationalities, 
and with the involvement--the donors were from Belarus, from 
Moldova, again--I don't remember. I can forward further and 
better information about that, but in all the analyzed cases, 
either the person was paid the amount of money that had been 
promised, but most often, they were paid much less even 
compared to the amount of money that was promised at the 
beginning, or not paid at all.
    For example, in the Kosovo case, the whole thing was 
discovered because the donor--I prefer to say the victim--was 
found at the airport in a state of extreme weakness. He was 
very sick; he was about to die. And he was not paid at all. He 
was abandoned in a situation of extreme sickness. So there is 
always a fraudulent pattern, which, of course, includes the 
complete lack of information on the consequences of the 
surgery. What happens is that the person goes back to the 
community, maybe with a little amount of money, but 
subsequently, she or he--most are men--cannot work anymore, so 
it is a vicious circle, and the person falls in a situation----
    Mr. Cohen. Doctor, I agree, this is a bad situation, but I 
don't know if it's exactly slavery. The other workers are 
basically forced into doing work, whether it's domestic labor, 
sex, migrants, whatever--this is more consumer protection or 
laborer employee, or whatever. I mean, it's not right.
    Dr. Giammarinaro. Yes, this is actually something new that 
we have to deal with. Of course, cases, as you said, in which 
people are forced in the sense of physical violence exercised 
to oblige them to do something exists, but there are also more 
subtle means of coercion, of what the protocol calls abuse of a 
position of vulnerability. For example, taking advantage of 
multiple dependencies of people that are in a foreign country. 
They don't know the language. They have a huge debt that they 
have contracted to migrate. They have a situation in which 
there are isolated--for example, in agriculture--in remote or 
very, very cold areas, and they depend on the exploiters for 
everything--for food, even for water.
    So they don't have, actually, a way out. They don't have 
other alternatives but to submit to their exploiters. And this 
poses a challenge--in particular, a new challenge to law 
enforcement, because of course, to identify physical violence 
is much easier than to identify this complex situation of 
dependency that leads to a compulsion which is not necessarily 
or not primarily based on complete lack of freedom of movement 
or physical violence, although physical violence is very often 
used when the person tries to react or tries to leave.
    Mr. Cohen. Thank you for your service and your testimony, 
and I yield back the balance of my time.
    Mr. Cardin. Senator Boozman is a new member of our 
Commission. I want to welcome you, first, to the Commission, 
and thank you for your interest and your commitment to the 
areas of the Commission's priorities, and it's nice to have you 
on the committee.

  HON. JOHN BOOZMAN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Boozman. Well, thank you, Senator Cardin. And it really 
is an honor to be a part of this group, and I appreciate you 
and Congressman Smith's leadership for many, many years. You 
know, these are such important things, and trying to protect 
those that can't protect themselves, and you two guys are 
certainly not new to that game. So we really do appreciate all 
your tremendous leadership and all that you represent.
    I'd like to, before I ask questions, just associate myself 
with something that Senator Cardin brought up. I really do 
think it is important that, as you go around, do reports and 
things like that, that there is transparency in that. I think 
the name and shame aspect is important, and certainly, we as a 
country don't do all that we need to be doing. And I do think 
that there's some good things in publicly pointing that out--
with good reason.
    So again, I'd just like to associate myself with that, and 
do think it is important. Let me ask you--your office has 
worked with the Ukrainian OSCE chairmanship following the 
February 2013 Rome expert seminar in preventing trafficking in 
the Mediterranean region to develop focus guidelines for 
cooperation on trafficking with their Mediterranean partners. 
What issues should the OSCE prioritize in its cooperation with 
our Mediterranean partners as we work to combat the human 
trafficking?
    Dr. Giammarinaro. We are in a discussion with our 
Mediterranean partners, especially because in October, there 
will be the conference of the Mediterranean partners, and a 
session will be devoted to trafficking human beings. So we are 
discussing a number of ideas for possible action, for possible 
cooperation in operational terms, and one of the ideas that is 
endorsed by Mediterranean partners is prevention of 
trafficking, especially of trafficking for labor exploitation, 
and with a special focus on the role and the commitment of the 
private sector. So we are thinking about how to deal with this 
issue in the region, and this could lead also to a number of 
concrete projects to be implemented.
    Another idea we are now discussing is how to--but I 
mentioned already in more general terms this problem--how to 
make it possible that workers--in this case, workers coming 
from North Africa or through North Africa from the sub-Saharan 
region, the Horn of Africa, et cetera--can be allowed and 
enabled to claim the rights in the destination countries. Or if 
the person is returned, how this person can, for example, ask 
for compensation in a way which makes it easier for the worker 
to--for example, to make a complaint in the country of origin, 
and then with a cooperation between the country of origin and 
the country of the destination, the compensation procedure can 
be carried out in the destination country. So these are, of 
course, problems concerning bilateral agreements or 
multilateral agreements that could be adopted in the region--in 
this case, it could be even a benchmark to establish a good 
practice allowing workers to ask for compensation between the 
country of origin and destination.
    Mr. Cardin. Will my friend yield briefly?
    Mr. Boozman. Yes, sir. For sure.
    Mr. Cardin. Doctor, in 2000--because I wrote the law, the 
Trafficking Victims Protection Act--we wrote and established 
two new visa categories, a T visa and a U visa. And not only 
did we say that a victim who makes their way to the United 
States will not be sent back where he or she--and most of the 
people would be women--would be retrafficked and hurt and 
harmed, but their families as well, because they're at risk 
because of the retaliation by the traffickers could also find 
their way here, and under the rubric of those visas, find 
asylum here.
    Are other OSCE countries--do they have similar laws like 
the U.S. T visa and U visa?
    Dr. Giammarinaro. Yes, I would say that many countries have 
specific regulations allowing victims of trafficking to stay at 
least for the duration of the procedures. The problem is, what 
are the grounds, what are the conditions? Many countries 
establish--I said that, you know, as a matter of regulation or 
as a matter of practice--have legal requirements to admit the 
person, to allow the person to have this possibility, this 
authorization to stay.
    And as I said, in a number of cases, this has proven not 
effective because if the victim is not ready or not willing 
because she or he is under threat or is particularly 
traumatized, et cetera, the whole system doesn't work. So there 
are regulations allowing the person to stay, but only in a few 
countries this regulation provides the victim with 
unconditional assistance. And this, I think, is the right 
direction.
    Mr. Boozman. No, I'm glad you brought that up, Congressman. 
The reality though is that in many, many cases, the victims are 
actually prosecuted. You know, you talk about that in your 
testimony that you have the victims, and they're actually 
prosecuted for being part of a criminal activity.
    Now, I brought all of the state agencies together for a 
conference not too long ago, and that had to do with 
trafficking. And they said one of their big things that they've 
switched over is viewing a 17-year old that is in this as a 
victim, versus a person that is committing a crime. So we've 
struggled with this in our country with law enforcement. And 
the good news, evidently that's coming from the top down.
    But that's a real problem, and so do you have any comments 
about how we can get away from--again, we find these people 
that we all agree are trafficked and in terrible situations, 
and yet they end up getting prosecuted along with the people 
that are doing it.
    Dr. Giammarinaro. I issued very recently recommendations on 
how to implement the nonpunishment provision. This is included 
in the U.N. Global Action Plan and in binding terms for the 
ratifying countries in the Council of Europe Convention and 
recently also in the European Union Directive on Trafficking.
    In other words, victims committing crime as a direct 
consequence of the trafficking process, their victimization 
shouldn't be punished, and not even prosecuted, if possible, 
and not detained. So in other words, they should be exempted 
from all the aspects of criminal proceedings in which they are 
considered offenders and not victims.
    Of course, this presents difficulties because in different 
legal systems--for example, in systems in which prosecution is 
discretionary or in which prosecution is compulsory, the clause 
should work in a different way. So I showed you recommendations 
about how to implement this clause, this provision in a way 
which is the most favorable to victims of trafficking.
    But the real problem there, I think, is a conceptual 
problem. So in other words, law enforcement should be trained 
and ready to understand that there is a situation of 
compulsion. I repeat, not necessarily linked with the use of 
the physical violence, but very often it is psychological 
violence or multiple dependency in which the person doesn't 
have any other alternative.
    For example, the traditional cases are the use of forged 
documents, the violation of immigration regulations, et cetera. 
And I would like to underline that even the imposition of fines 
or of administrative sanctions have very bad consequence for 
the victim that should be avoided. But there are recent cases 
in the U.K., for example, in which children were obliged, were 
compelled to work in cannabis factories.
    So it was a serious crime of drug cultivation. And 
recently, there was a favorable decision of court of appeal 
recognizing that these children were in a situation of 
compulsion, and so the prosecution shouldn't have even 
initiated. So it's a process that is going. We are at a 
starting point, actually.
    Mr. Boozman. Thank you very much, Doctor. Thank you, Mr. 
Chairman.
    Mr. Cardin. Senator Boozman, thank you very much. 
Appreciate it.
    Senator Boozman raised a very important point on 
transparency; he was referring back to me. I just don't want to 
leave this point--I understand the strengths and weaknesses of 
a consensus organization. But it does not prevent us from 
naming names. It does not prevent us from putting a spotlight 
on what is right.
    And I've joined Congressman Smith as we've gone to 
countries and have seen victim centers that are really the way 
that a country should deal with trafficking victims. And we've 
been in countries where their law enforcement doesn't get it. 
And I think it's our responsibility to name countries and how 
well they're doing. And I don't believe that conflicts with the 
consensus nature of our organization. So I just really wanted 
to just underscore that point, because I don't think there's an 
inconsistency there.
    Also, we need to take advantage of every opportunity we 
have. And we've done that. Senator Whitehouse, who was here a 
little bit earlier--valuable member of this Commission, also on 
the Senate Judiciary Committee--as we were reauthorizing the 
Violence Against Women Act, it gave us an opportunity to 
strengthen our trafficking laws. So we need to take advantage 
of every opportunity.
    And I think your testimony really points out the complexity 
of this issue. It's not just one type of trafficking or one 
type of circumstance. And each country is somewhat different. 
But you have pointed out patterns that we can be more effective 
and policies to counter. And that's what we hope--all of us 
hope, that as we revisit the commitment of the OSCE to rid our 
region and world of modern-day slavery, that we will up our 
game and look at ways that we can be more effective in using 
technology, using the strength of the OSCE to make that 
progress.
    Your testimony has given us a road map. Since this is 
probably your last time you'll be before the Commission in this 
capacity, on the behalf of the U.S. Helsinki Commission, we 
want to thank you for your international service on this issue. 
We're extremely proud of the role that you have played in 
helping us with an effective international presence to deal 
with trafficking. Thank you very much. And with that the 
hearing will stand adjourned. [Sounds gavel.]
    Dr. Giammarinaro. Let me thank the Helsinki Commission for 
your constant support and your leadership. Thank you.
    [Whereupon, at 11:25 am, the hearing was adjourned.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


Prepared Statement of Hon. Benjamin L. Cardin, Chairman, Commission on 
                   Security and Cooperation in Europe

    Welcome to this Helsinki Commission hearing on ``OSCE Efforts to 
Combat Human Trafficking: Outlook and Opportunities.'' The Helsinki 
Commission has been an instrumental component in the leadership of 
United States Government efforts to combat human trafficking. Our 
Members have a strong history of contributions to the inception U.S. 
anti-trafficking legislation and compliance. This, coupled with close 
engagement with actors throughout the Organization for Security and 
Cooperation in Europe (OSCE) region on trafficking issues, have served 
to meet our human rights commitments within the Helsinki Final Act of 
1975.
    I last convened a hearing on human trafficking as Chairman of the 
Helsinki Commission in July 2010 when we commemorated ``A Decade of the 
Trafficking in Persons Report.'' This was the last time the Commission 
hosted Dr. Maria Grazia Giammarinaro, OSCE Special Representative and 
Coordinator for Combating Trafficking in Human Beings. Much has changed 
in a short time since 2010 in terms of global awareness of the scourge 
of modern-day slavery, but also the sophistication of methods employed 
by traffickers to exploit the vulnerable. Countless men, women, and 
children have faced the brutality of trafficking first-hand, aside from 
the social and economic costs that extend beyond their captivity. We 
must remain resolute in demanding immediate action from governments 
around the globe to support civil society efforts and ensure swift 
punishment of traffickers to interrupt this violent cycle of 
exploitation. OSCE initiatives are helping us take this action.
    We are honored to be joined today by Dr. Giammarinaro. Since her 
last appearance before the Helsinki Commission, she was honored as a 
2012 Trafficking in Persons Report Hero by the U.S. Department of State 
and traveled extensively to contribute her expertise and leadership 
around the globe. We are honored to have an opportunity for a candid 
discussion about the accomplishments of Dr. Giammarinaro's tenure and 
how the OSCE has risen to the challenge by facing the evolving 
methodologies of traffickers with innovative research, country visits, 
and regional trainings. We look forward to examining the outlook for 
the initiatives of her office, including the prospect of an addendum to 
the 2003 OSCE Action Plan on Combating Trafficking in Human Beings, as 
well as guidelines for OSCE cooperation with Partners for Cooperation 
in the Mediterranean and Asia.
    I see this hearing as an opportunity to examine not only the OSCE's 
institutional development on human trafficking, but to reflect on how 
the U.S. Government can make a greater commitment to ending modern-day 
slavery. President Obama's Inter reported substantial progress earlier 
this year in improving cooperation to prosecute traffickers and deliver 
life-saving services to victims. Additionally, President Obama signed 
an Executive Order last September to protect against trafficking in 
persons in federal contracts. We still have a long way to go and there 
are many more opportunities for partnership.
    We look to you, Dr. Giammarinaro, for recommendations regarding how 
we can be even more active in overall OSCE efforts to end human 
trafficking. Thank you for taking the time to join us.

   Prepared Statement of Dr. Maria Grazia Giammarinaro, OSCE Special 
   Representative and Coordinator for Combating Trafficking in Human 
                                 Beings

Honourable Chairperson/s,
Distinguished Members of the Commission,

    I am delighted and honoured to testify today before the Helsinki 
Commission of the United States Congress in my capacity as the OSCE 
Special Representative and Co-ordinator for Combating Trafficking in 
Human Beings.
    In 2003, the position of Special Representative and Co-ordinator 
for Combating Trafficking in Human Beings was established as a high-
level mechanism to promote the implementation of the OSCE Action Plan 
and other commitments on combating trafficking in human beings in all 
the 57 OSCE participating States. The mandate of the Special 
Representative is to work with the representatives of governments and 
Parliaments, as well as judiciary of the participating States; to 
catalyze the exchange of best practices; to provide technical 
assistance when requested, especially in the field of training and 
capacity building; to report on anti-trafficking developments in the 
OSCE region and to raise the public and political profile of the fight 
against trafficking in human beings. \1\
---------------------------------------------------------------------------
    \1\  OSCE Ministerial Council, Decision No. 3/06 Combating 
Trafficking in Human Beings, MC.DEC/3/06 (21 June 2006) http://
www.osce.org/mc/22762, accessed 5 September 2013.
---------------------------------------------------------------------------
    Since 2000, the OSCE has adopted important political commitments on 
an almost yearly basis to continually strengthen our efforts to combat 
trafficking in human beings. This includes the 2011 Vilnius Ministerial 
Declaration on Combating All Forms of Human Trafficking, \2\ co-
sponsored by the United States and the Russian Federation, which acted 
as a catalyst for our Office to intensify its activities in many 
respects and reaffirmed our full commitment to the Universal 
Declaration of Human Rights: ``No one shall be held in slavery or 
servitude; slavery and the slave trade shall be prohibited in all their 
forms.'' \3\
---------------------------------------------------------------------------
    \2\  OSCE Ministerial Council, Declaration on Combating All Forms 
of Human Trafficking, MC.DOC/1/11/Corr.1 (7 December 2011) http://
www.osce.org/mc/86373, accessed 5 September 2013.
    \3\  United Nations, Universal Declaration of Human Rights (10 
December 1948) http://www.un.org/en/documents/udhr/index.shtml, 
accessed 5 September 2013.
---------------------------------------------------------------------------
    I have served as the Special Representative for most of the past 
four years and I am now in the final year of my work at the OSCE, which 
began when I took office in March, 2010.
    Before I begin, I would like to thank the United States of America 
for its strong support of my Office during the past four years, and 
thank the Helsinki Commission and its Chairman, Senator Benjamin L. 
Cardin and Co-Chairman Congressman Christopher H. Smith for holding 
this hearing today, and I would like to also thank Ambassador Luis 
CdeBaca for his leadership in co-ordinating the U.S. Government's fight 
against contemporary forms of slavery on both the domestic and 
international levels.
    This session is mostly dedicated to a review of the activities of 
my office during my tenure as Special Representative. I will also focus 
on the work of the OSCE to combat trafficking in human beings prior to 
the start of my work and outline some areas where the Organization can 
focus its efforts in the future. This includes an Addendum to the 
original Action Plan to Combat Trafficking in Human Beings \4\ intended 
to complement the existing commitments and recommendations by providing 
participating States with an updated and more comprehensive toolkit to 
increase their capacity in combating all forms of trafficking in human 
beings that takes into account the evolving nature of this crime and 
human rights violation.
---------------------------------------------------------------------------
    \4\  OSCE Permanent Council, Decision No. 557/Rev.1 OSCE Action 
Plan to Combat Trafficking in Human Beings, PC.Dec/557/Rev.1 (Vienna, 7 
July 2005) http://www.osce.org/pc/15944, accessed 27 August 2013.
---------------------------------------------------------------------------
    I will begin by touching upon two issues: the state of play in the 
struggle against trafficking in human beings, and the major challenges 
we will combat going forward. In my assessment of the state of play I 
will take into account a number of elements: government action, issues 
surrounding the increase in trafficking globally, and factors that, if 
implemented, can increase the effectiveness of anti-trafficking action, 
as well as ideas that will allow us to create a second-wave of anti-
trafficking action.

1. Assessment of the state of play
1.1. Governmental action
    It is clear that many efforts have been made by governments of the 
participating States throughout the OSCE region since 2000, with the 
fundamental contribution of NGOs, as well as with the support of 
international organizations including the OSCE Office of the Special 
Representative and Co-ordinator for Combating Trafficking in Human 
Beings (OSR/CTHB) and the OSCE Office for Democratic Institutions and 
Human Rights (ODIHR) Anti-trafficking Unit, promoting a comprehensive, 
human rights based approach to combating trafficking in human beings.
    Over this period, there have been many visible and encouraging 
achievements. The key indicators of the level of political will include 
the ratification of international instruments, the adoption of national 
legislation, the establishment of national anti-trafficking mechanisms, 
and the allocation of adequate financial and human resources for their 
implementation.
    Concerning the ratification of international instruments, the 
Palermo Protocol to the United Nations Convention against Transnational 
Organized Crime has been ratified since its adoption in 2000 by all but 
one of the OSCE participating 
States.\5\ At the regional level, the Council of Europe Convention on 
Action against Trafficking in Human Beings (2005), in force since 1 
February 2008, has been ratified by 40 Council of Europe member States 
to date and has been signed by 43 States in total.\6\
---------------------------------------------------------------------------
    \5\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime (New York, 15 
November 2000), https://www.unodc.org/documents/treaties/UNTOC/
Publications/TOC%20Convention/TOCebook-e.pdf, accessed 26 August 2013.
    \6\  Council of Europe, Convention on Action against Trafficking in 
Human Beings, 
CETS No. 197 (16 May 2005), http://www.conventions.coe.int/Treaty/
Commun/QueVoulezVous.asp?NT=197&CM=1&CL=ENG, accessed 26 August 2013. 
Furthermore the OSCE MC Decision No. 13/05 Combating Trafficking in 
Human Beings (MC.DEC/13/05, 6 December 2005, Ljubljana) calls on 
participating States to consider signing and ratifying where 
appropriate the Council of Europe Convention. All Council of Europe 
member States are OSCE participating States, and non-Council of Europe 
member States are also welcome to become party to the Convention.
---------------------------------------------------------------------------
    Since 2000, the vast majority of the 57 OSCE participating States 
have integrated anti-trafficking legislation into their national legal 
framework, meaning that almost all have specific legal provisions on 
combating trafficking in human beings.
    Another important indicator of the political will is the 
establishment of anti-
trafficking machinery and the allocation of sufficient resources to 
make it function. A majority of participating States have set up anti-
trafficking National Co-ordination Mechanisms or similar inter-
ministerial bodies to co-ordinate activities among State agencies and 
NGOs. Increased resources through greater budgetary allocation are 
essential to better fund such activities.\7\ A key element for 
allocating resources, setting benchmarks, strategic priorities and 
concrete actions is the National Action Plan. Such Plans, or an 
equivalent co-ordinated policy/programmatic response have been put in 
place by a majority of participating States. The effectiveness of the 
anti-trafficking machinery depends on its actual implementation, and in 
particular on the human and financial resources dedicated to the 
functioning of these structures. In practice, for example, many 
National Co-ordinators are not engaged on a full-time basis with an 
official job description, and they often lack sufficient staff and 
budgetary funding.
---------------------------------------------------------------------------
    \7\  Organization for Security and Co-operation in Europe, Efforts 
to Combat Trafficking in Human Beings in the OSCE Area: Co-ordination 
and Reporting Mechanisms (Vienna, 13 November 2008), http://
www.osce.org/cthb/36159?download=true, accessed 13 September 2013.
---------------------------------------------------------------------------
    Awareness-raising activity to combat human trafficking is important 
and has been a priority of mine and has strengthened over time since 
the establishment of the Office of the Special Representative in 2003. 
I have paid particular attention to the development of close co-
operation with the media and I believe that the influence of the 
``fourth power'' in the prevention of modern-day slavery, awareness-
raising and in decreasing the vulnerability of most disadvantaged 
groups of the population, is as crucial as the media's engagement in 
the creation of a climate of zero tolerance towards human exploitation 
in any society.
    Reaching out to the next generation of journalists is another key 
aspect of my awareness-raising activity. I have conducted interviews 
with student journalists and met with student groups across the OSCE 
region and launched a project in Russia to establish a special course 
on ``Trafficking in Human Beings: the Global Perspective and the Role 
of the Media'' for students and postgraduates of the Moscow State 
University's Faculty of Journalism. The university taught a year-long 
course at its journalism faculty on reporting human trafficking issues 
beginning in the spring semester of 2012. We published a course book 
based on this material earlier this year together with the university 
and the Russian Union of Journalists \8\ that was partially funded by 
the United States.
---------------------------------------------------------------------------
    \8\  Organization for Security and Co-operation in Europe, Moscow 
State University's Faculty of Journalism, the Russian Union of 
Journalists, Mass Media Against Human Trafficking, (Moscow, 28 March 
2013) http://www.osce.org/ru/cthb/100483, accessed 13 September 2013.
---------------------------------------------------------------------------
    The United States has played a key role in increasing awareness, 
not only through the annual Trafficking in Persons Report \9\ and the 
work of many dedicated government officials and legislators at the 
national, state and local level, but also through supporting the work 
of numerous NGOs active in the field. This has led to increased 
understanding by policy makers and legislative reform, improved co-
operation among stakeholders, better statistical knowledge and 
understanding of trafficking in human beings on the basis of concrete 
evidence, increased training and educational activities, and improved 
identification and protection of victims of trafficking.
---------------------------------------------------------------------------
    \9\  United States Department of State, Trafficking in Persons 
Report 2013 (Washington, 2013), http://www.state.gov/j/tip/rls/tiprpt/
2013/, accessed 27 August 2013.
---------------------------------------------------------------------------
    The fight against trafficking in human beings has also been 
strengthened thanks to increased co-operation which leads to the 
adoption of regional action plans, such as the CIS Program of Co-
operation to Combat Trafficking in Human Beings (2011-2013). Another 
regional good practice is the development of Transnational Referral 
Mechanisms for the protection of trafficked persons, an effort which 
builds on the OSCE/ODIHR work on national referral mechanisms, and 
which was funded by USAID. \10\
---------------------------------------------------------------------------
    \10\  The International Centre for Migration Policy Development, 
through the support of USAID and the European Commission, has been 
supporting Transnational Referral Mechanisms in South-Eastern Europe 
and in the European Union to develop cross-border referral, assistance 
and support mechanisms, including all concerned state and non-state 
actors, to ensure comprehensive and effective assistance and protection 
for trafficked persons, in line with a human rights based approach.
---------------------------------------------------------------------------
    Co-operation beyond the borders of the OSCE region is essential to 
combat human trafficking. The OSCE has developed special relations with 
six Mediterranean Partners for Co-operation, Algeria, Egypt, Israel, 
Jordan, Morocco and Tunisia, based on a wide and consolidated framework 
for dialogue and co-operation. The topic of human trafficking was among 
the key areas for enhanced dialogue with the Partners, given the 
transnational nature of this crime and the ever changing patterns of 
this phenomenon that require the involvement of further stakeholders 
outside the OSCE region.
    The Partners for Co-operation in Asia was launched in the early 
1990s to foster a flexible dialogue with the OSCE, at the time when the 
Organization was taking on a more formal structure, and it now includes 
Japan, Korea, Thailand, Afghanistan and Australia. I have devoted 
particular attention to co-operation with these partners, speaking at 
conferences in Thailand, Australia and elsewhere in the region to 
ensure that our efforts to combat trafficking jointly are sustained and 
effective.
    Although numerous good practices exist in the OSCE participating 
States, a significant gap between regulation and actual implementation 
has been highlighted. There is no doubt that trafficking in human 
beings has developed into a major criminal phenomenon entailing gross 
violations of human rights and fundamental freedoms, and heavily 
affecting economic and labour market sectors such as agriculture, 
construction, fishing, the textile industry, tourism and domestic work. 
According to a 2012 report by the International Labour Organization 
(ILO) an estimated 20.9 million people were in forced labour globally, 
with women and girls representing 11.4 million, or 55 per cent of the 
total. \11\ Separate data compiled by the United States Department of 
State showed that globally there were 7,705 prosecutions for human 
trafficking in 2012 and 4,746 convictions with 46,570 victims 
identified. This compares to 7,206 prosecutions for trafficking in 
2011, and 4,239 convictions, with 41,210 victims identified. \12\
---------------------------------------------------------------------------
    \11\  International Labor Organization, Global Estimate of Forced 
Labor, (Geneva, 1 June 2012), http://www.ilo.org/washington/
WCMS_w182004/lang--en/index.htm, accessed 26 August 2013.
    \12\  United States Department of State, Trafficking in Persons 
Report 2013 (Washington, 19 June 2013), http://www.state.gov/j/tip/rls/
tiprpt/2013/, accessed 26 August 2013.
---------------------------------------------------------------------------
    The ongoing fallout from the global economic crisis also continues 
to affect sectors such as agriculture and construction, making forced 
labour an increasingly attractive option for unscrupulous businesses. 
Stories continue to surface of slavery-like conditions prevailing among 
workers in these sectors across the OSCE region.
    To conclude on the results of government action in the OSCE area, 
my general assessment is that political will to combat trafficking in 
human beings has clearly increased since 2000. Unfortunately, the scale 
and the scope of human trafficking has also continued to expand as 
criminals devise new ways of exploiting the powerless. This should not 
discourage us, instead, it must stiffen our resolve as we seek to 
eliminate this crime.
1.2. Combating trafficking more effectively
    How to deal with the nature of this phenomenon, which is 
increasingly linked to economic trends, related policy areas such as 
migration policies and labour market regulations, and national 
legislation? This is something we are exploring with our partners in 
the Alliance against Trafficking in Persons, an OSCE-led initiative and 
partnership with major international organizations and NGOs.
    First of all, trafficking in human beings should be seen as an 
issue of social justice, or more precisely an issue of global justice. 
The criminal justice response to trafficking is still weak and must be 
strengthened. However, the prevention of, and fight against human 
trafficking is first and foremost about building a more fair society, 
in which there is no acceptance or indifference toward the exploitation 
of people who are easily enslaved simply because they are poor, 
destitute, uneducated, marginalised and discriminated against, and 
therefore deprived of the basic protection of the rule of law. This is 
a task for governments and public institutions, but it is also a task 
for every individual. To prevent and combat a massive scale human 
rights violation, the contribution of women and men of good will is 
needed, just as it happened in the history of the anti-slavery 
movement.
    Secondly, one essential element of a new strategy to prevent and 
combat trafficking as a human rights violation on a massive scale is to 
ensure that victims and survivors have full access to justice. Access 
to justice includes trafficked and exploited persons' right to 
compensation through the criminal justice system, civil and labour law 
litigation, state compensation funds or out-of-court negotiations. Only 
if we address a broader area of exploitation and enable every 
individual who worked without being fairly paid and treated to claim 
her or his rights, only then will we be able to encourage trafficked 
persons to come forward. Unfortunately we have to admit that, in the 
vast majority of cases, competent authorities and especially 
immigration authorities are still reluctant to identify actual cases as 
trafficking cases, even when there are clear indications of the crime; 
as a consequence, very often the only outcome of labour or migration 
checks is the immediate deportation of workers, who are not allowed to 
claim back-payments of their salaries and compensation.
    If national legislation and practice enabled exploited persons to 
obtain restitution of unpaid wages and compensation, for example by 
ensuring free legal counselling and representation and by establishing 
dedicated state funds, such legislation would give justice to 
trafficked persons, and simultaneously enable them to start something 
new, and build a better life for themselves and their loved ones, 
wherever they decide to settle.
    Thirdly, we are increasingly aware that we have to tackle all forms 
of trafficking in human beings. An increasing trend has been 
highlighted by recent assessments regarding trafficking for labour 
exploitation including domestic servitude, and dramatically regarding 
child trafficking. At the same time, trafficking for sexual 
exploitation has not disappeared, and even in countries in which there 
are indications of a decrease, we don't know if it is really 
diminishing or if it is merely becoming increasingly difficult to 
detect. Also trafficking for forced and organised begging, for forced 
criminality, for the removal of organs and other new and challenging 
forms of trafficking deserve further attention and an adequate 
response.
    The 2003 Action Plan to Combat Trafficking in Human Beings remains 
our strategic document that guides the participating States in the 
three ``P'' areas (Protection, Prosecution and Prevention). Its victim 
centred approach was re-confirmed by the 2011 Vilnius Ministerial 
Declaration, and its implementation, as well as the implementation of 
subsequent Ministerial Decisions are an on-going process.
    Still, since 2003 the OSCE participating States, international 
organizations and NGOs, and, in particular, the Office of the Special 
Representative and Co-ordinator for Combating Trafficking in Human 
Beings and other OSCE executive structures and institutions, especially 
the ODIHR, have gained remarkable experience in combating this heinous 
crime, and elaborated good practices that were not reflected in the 
Action Plan a decade ago.
    Furthermore, criminal organizations engaged in human trafficking 
have become much more sophisticated in their modus operandi, 
elaborating new subtle methods of recruitment, and penetrating new 
economic sectors, both legal and illicit, to exploit their victims and 
launder their profits. In this context we strongly support the 
Ukrainian OSCE Chairmanship that recognized the fight against modern-
day slavery as one of its priorities, in the work on an Addendum to the 
OSCE Action Plan. This document, if adopted, could significantly enrich 
and update the Action Plan and strengthen the coherence of the OSCE 
response to human trafficking. We would be happy to provide technical 
assistance to the Chair and the participating States in this endeavour.
1.3. Combating all forms of trafficking, especially for labour 
        exploitation and child trafficking
    It is crucial to take action against the growing phenomena of 
trafficking for labour exploitation and child trafficking, and 
therefore I have sought to especially spotlight these issues during my 
time in office. Labour exploitation occurs in economic sectors in which 
demand for cheap labour is endemic, and in some instances is fostered 
through criminal means. Often recruitment agencies encourage migrants 
to borrow money to cover recruitment fees and travel expenses, and 
employ these and other abusive and fraudulent practices that either 
directly lead to trafficking or increase the vulnerability of workers 
to exploitation. Through a combination of wage deductions, payments in 
kind and debt manipulation, workers end up in situations of debt 
bondage in which they have no other viable option but to submit to 
their exploiter. To this end, I will continue to advocate the 
protection and promotion of workers' rights, and support the 
implementation of the ILO Decent Work and Social Justice Agenda, and 
will continue to engage with trade unions and the private sector as 
crucial partners to prevent and combat trafficking for labour 
exploitation.
    In a particular area of trafficking for labour exploitation--
domestic servitude in diplomatic households- my Office has pioneered 
work to highlight this particularly hidden form of trafficking. My 
Office has co-operated with countries where good practices are already 
in place to sensitize the other participating States on effective 
measures to prevent this form of trafficking, and we have already held 
high-level seminars in Geneva and Kyiv as part of a series partially 
funded by the United States. In this regard, we are glad to have the 
strong support of Gladys Boluda, Acting Chief of Protocol for 
Diplomatic Affairs. More seminars are planned in other OSCE regions to 
enhance the prevention of trafficking in human beings for domestic 
servitude in diplomatic households. On 8-9 October, a workshop will be 
held in The Hague for the Balkans and East European countries.
    Child trafficking is widespread in the OSCE region and is reported 
by Europol to be a growing area of organized crime for any form of 
exploitation, including for child begging. It affects many vulnerable 
groups of children such as unaccompanied and separated, asylum-seeking 
and refugee children. There are also vulnerabilities involving children 
such as those living in institutions, or belonging to ethnic minorities 
among others. I have thus continued to call for the strengthening of 
child protection systems, as a powerful means to prevent child 
trafficking.
1.4. The evolving phenomena of trafficking in human beings
    Trafficking in human beings is an evolving phenomena, necessitating 
great vigilance on the part of criminal justice and legal authorities. 
While physical violence continues to be regularly used against some 
groups of trafficked persons, more subtle methods of coercion and abuse 
of a position of vulnerability have appeared. These include, for 
example, psychological dependency in cases of domestic servitude, 
withholding of wages and debt bondage, and forms of ``negotiation'' of 
the exploitative terms and partial earnings sharing. In some countries, 
such methods, along with the fact that many victims are aware of ending 
up in prostitution or in an irregular job situation, may significantly 
challenge their position when identified and required to describe the 
coercion suffered.
    The ever-evolving modus operandi poses a real challenge for law 
enforcement, prosecutors and judges, in both cultural and legal terms. 
For them, it is still difficult to realize that a person, although she 
or he has not been locked up in an apartment or in a workplace, could 
nevertheless be coerced to stay in an exploitative situation because 
she or he has no viable and acceptable alternative but to submit to the 
abuse. Yet in several trafficking cases, workers are induced to stay in 
an exploitative and slavery-like situation even if they are not paid 
for months.
    The result is all too often that trafficking cases, especially for 
labour exploitation, are rarely qualified as such, criminal networks 
are not disrupted, perpetrators go unpunished and victims are not 
identified nor redressed. In order to counter this discouraging 
situation I have met with judges from across the OSCE region at 
judicial training seminars in order to ensure that trafficked people's 
legal rights are upheld and given the same importance as punishing 
perpetrators in court. I also stress the importance of upholding the 
right to claim compensation, which remains one of the most neglected 
aspects of providing justice in human trafficking cases. \13\
---------------------------------------------------------------------------
    \13\  See for example, Directive 2011/36/EU of the European 
Parliament and of the Council of 5 April 2011 on preventing and 
combating trafficking in human beings and protecting its victims, 
http://eur-lex.europa.eu/LexUriServ/
LexUriServ.do?uri=OJ:L:2011:101:0001:0011:EN:PDF, /, accessed 26 August 
2013.
---------------------------------------------------------------------------
    My assessment of the state of play of anti-trafficking action in 
the OSCE area is that, despite the significant commitments and action 
taken, trafficking in human beings is still not considered a strategic 
issue; nor does trafficking in human beings raise the same level of 
concern as other human rights issues such as torture, or other 
transnational threats such as drug trafficking. As a result, an 
effective law enforcement response to the evolving nature of the crime 
has been lacking.

2. The challenges
2.1 Implementation of anti-trafficking commitments
    I am convinced that in my capacity as the OSCE Special 
Representative I have to promote a different perception of trafficking 
in human beings, which has often been treated as a marginal phenomenon, 
involving the profiles of only certain victims, or limited to sexual 
exploitation. It is time to ensure that trafficking in all of its forms 
is acknowledged for what it is: modern-day slavery, on a massive scale, 
mostly a business of organized crime and a serious threat for national 
and international security. Instruments that we have built over the 
past ten years--such as legislation, anti-trafficking policies and 
national machineries--should now work on a much larger scale.
    I have travelled tirelessly on official country visits across the 
OSCE region, visiting Azerbaijan, Bosnia and Herzegovina, Canada, 
Ireland, Italy, Ireland, Kazakhstan, Moldova, Portugal and, most 
recently, Romania. During the remainder of my term I also plan to carry 
out an official country visit to Uzbekistan.
    Country visits serve to establish a direct and constructive 
dialogue with participating States on anti-trafficking policy. During 
country visits, I hold consultations with government authorities, 
parliamentarians, and representatives of the judiciary and NGOs on 
human trafficking issues and aim to share knowledge and good practices.
    After each visit, I issue a country report, underlining promising 
practices of the country, as well as challenges discussed and areas 
where anti-trafficking policy could be enhanced. The report contains 
concrete and focused recommendations to support the country in 
enhancing the implementation of OSCE anti-trafficking commitments. If 
the country agrees, the report is made public, with a response from the 
Government, where given.
    Country visits are an opportunity to assess these challenges and 
also tackle issues such as the lack of acknowledgement of the 
involvement of public officials in trafficking in human beings in some 
participating States. Few actions have been taken, and even fewer 
prosecutions have been undertaken where allegations of corruption have 
arisen.
    Such trips also allow me to determine where there are serious gaps 
and challenges in the adoption of comprehensive anti-trafficking laws 
and National Action Plans. Some National Action Plans fail to tackle 
all forms of exploitation, several of which do not include trafficking 
in human beings for labour exploitation, internal trafficking, child 
trafficking, or trafficking in men. Trafficking in human beings for 
labour exploitation as well as all other forms of trafficking should be 
clearly identified and criminalised.
    Participating States still lack reliable data and empirical 
evidence to understand the problem and respond adequately at the local, 
national, regional and international levels, perhaps because most 
countries do not have a National Rapporteur or equivalent mechanism, 
which can monitor and report on the phenomenon and the impact of 
legislation, policies and initiatives. The dearth of systematic data 
gathering and evidence based research can have a profound impact at the 
national level, undermining the effectiveness of measures and the 
investment of funds and human resources provided to tackle trafficking 
in human beings.
2.2 Alliance against Trafficking in Persons
    My efforts to combat human trafficking also include The Alliance 
against Trafficking in Persons, an informal platform for co-operation 
between the OSCE and major international organizations and NGOs 
recognized for their active stand against modern slavery. The Alliance 
was designed to serve the following goals, beneficial for both the 
Alliance Partners and the OSCE participating States: exchange of best 
practices and information, sharing of experience, exploring new 
approaches to better tackle trafficking in human beings, establishing 
shared priorities and undertaking common initiatives, thus ensuring 
better co-ordination among international organizations and diminishing 
duplication. The Alliance also was targeted at providing the OSCE 
participating States and Partners for Co-operation with harmonized, 
evidence-based approaches, international expertise, and served as a 
platform for dialogue with civil society.
    The foremost principle is the human rights-centred perspective at 
the core of all OSCE action against trafficking in human beings. This 
requires a holistic and integrated approach, giving first place to the 
rights and legitimate interests of trafficked persons. Victims should 
be identified at an early stage, assisted and supported in a process 
which aims at their recovery, and in the medium term at their social 
inclusion. Therefore, co-operation with civil society organizations is 
crucial in order to ensure that a confidence building process takes 
place in a friendly, respectful and protective environment.
    There have been two main modalities of co-operation within the 
Alliance against Trafficking in Persons, our annual conference in 
Vienna and meetings of our co-
ordination team of experts from leading international organizations, 
NGOs, and researchers. The United States has played a significant role 
in the Alliance conference, sending prominent speakers including 
Kenneth Morris, President of the Frederick Douglass Family Foundation, 
Rani Hong, Executive Director of the Tronie Foundation, James Felte, 
Prosecutor, Human Trafficking Prosecution Unit, United States 
Department of Justice, David Lopez, General Counsel of the U.S. Equal 
Employment Opportunity Commission, attorney and author Victor Boutros, 
and Ambassador CdeBaca.
2.3 Internal co-ordination and co-operation
    Internal co-ordination and co-operation with other OSCE departments 
are another essential part of our efforts to fight human trafficking. 
The joint Transnational Threats Department/Strategic Police Matters 
Unit (TNT/SPMU), the Gender Senior Adviser and her team and the ODIHR 
Anti-trafficking Programme are key partners, along with the anti-
trafficking focal points in field operations.
    With its comprehensive and cross-dimensional approach to combating 
human trafficking, the OSCE has a solid track record of utilizing and 
building upon the substantial work carried out by its various bodies 
when dealing with the problem. My Office and these partners join 
efforts to support participating States in their anti-trafficking work, 
and are committed to operating in a coherent and complementary manner 
on the basis of their respective institutional mandates with the common 
purpose of promoting the implementation of OSCE commitments at the 
national level. Through regular exchanges and consultations, the bodies 
keep each other informed, identify issues of concern and common 
priorities, set agendas, and maximize the use of limited resources by 
acknowledging and building on internal institutional resources of 
expertise when possible. Regular exchanges help share experiences and 
lessons learned, sum up and capitalize on on-going efforts, and 
strengthen the Organization's institutional memory and expertise.
    Co-ordination and co-operation are therefore on-going processes 
that take various forms, including: co-ordination meetings of 
structures in the Secretariat, where possible with the participation of 
the ODIHR; annual meetings of all OSCE bodies (for example, Anti-
Trafficking Focal Points meetings hosted by my Office and/or the ODIHR, 
annual Heads of Mission meetings); bilateral meetings between heads of 
unit; and, at working level, continuous regular exchange of 
information, joint planning of activities, and joint development of 
documents and assistance to participating States, where appropriate.
2.4 Events and Publications
    Occasional Papers and Annual Reports are an essential tool in the 
fight against human trafficking, providing valuable background 
information as well as policy tools for decision makers and 
practitioners dealing with the issue on the ground. During my time in 
Office, my Office has produced a number of reports and papers to assist 
practitioners, legislators and others. Because the Alliance conferences 
have been such an important forum for ground-breaking research, they 
have often set the agenda for new publications from my Office.
    The 2010 Alliance Conference was inspired by the first Occasional 
Paper I published, Unprotected Work, Invisible Exploitation: 
Trafficking for the Purpose of Domestic Servitude. \14\ This issue has 
not been adequately addressed so far at the international level and 
across the OSCE area. The Conference highlighted that the vulnerability 
of the workers, mainly women and girls, derives from the fact that 
domestic work is usually under-regulated, under-protected and 
undervalued. The adoption of the International Labour Organization 
(ILO) Convention on Decent Work for Domestic Workers \15\ is an 
important step in the right direction in guaranteeing workers' rights 
and preventing domestic servitude.
---------------------------------------------------------------------------
    \14\  Organization for Security and Co-operation in Europe, 
Unprotected Work, Invisible Exploitation: Trafficking for the Purpose 
of Domestic Servitude (Vienna, 2010), http://www.osce.org/cthb/75804, 
accessed 1 September 2013.
    \15\  International Labour Organization, The Convention Concerning 
Decent Work for Domestic Workers (Geneva 2011), http://www.ilo.org/
brussels/WCMS_157836/lang--en/index.htm, accessed 1 September 2013.
---------------------------------------------------------------------------
    Domestic servitude must be detected and prosecuted. Adequate 
punishments are critical, including the possibility for victims to 
achieve compensation, and for the prosecution to reach not only the 
final exploiter but the whole supply chain of recruitment and placement 
companies.
    The OSCE is part of the diplomatic community, and we are ready to 
take action to prevent domestic servitude in diplomatic households, for 
example by advocating to set up specific procedures and guarantees so 
that domestic workers who work for members of the diplomatic corps or 
international organizations are fully informed about their rights, 
available support, and importantly, remain in possession of their 
travel and identity documents.
    The series of seminars to enhance the prevention of trafficking in 
human beings for domestic servitude in diplomatic households I 
mentioned earlier are an important part of these efforts, and the 
Occasional Paper is used as a key reference work, which was translated 
also into French and Russian.
    A second publication, Analysing the Business Model of Trafficking 
in Human Beings to Better Prevent the Crime, \16\ implemented as part 
of the UN.GIFT Expert Group Initiative, is an exploratory research 
aimed at understanding what makes trafficking in human beings 
profitable, considering the demand, costs, risks, revenues, and profit 
margins and--consequently--to remove a powerful incentive and disrupt 
the trade. In order to accomplish this goal, the project focused on 
trafficking at both the individual level, explaining decisions 
individuals take while conducting a cost-benefit analysis and 
justifying their actions, and at the organizational level. For the 
latter, the study focused on a comprehensive description of the 
economic and social organization of human trafficking, its modus 
operandi, aspects of its business model, the ways in which it 
interfaces with other criminal enterprises, other types of crimes and 
the nexus between human trafficking and legal enterprises and 
professionals (in other words, the environments conducive to organized 
criminal activity).
---------------------------------------------------------------------------
    \16\  Organization for Security and Co-operation in Europe, 
Analysing the Business Model of Trafficking in Human Beings to Better 
Prevent the Crime (Vienna, May 2010), http://www.osce.org/cthb/
69028?download=true, accessed 3 September 2013.
---------------------------------------------------------------------------
    The area least explored and understood in the trafficking process 
is the profit generated by trafficking and the financial investments of 
traffickers. It is not clear how exactly profits are re-invested to 
increase the trafficking business, to what extent the profit is spent 
in maintaining a luxurious lifestyle (the latter was more prevalent in 
the cases included in this study where this information was available) 
or how and where the profit is invested in legitimate businesses in the 
trafficker's home country--or a combination of any of these. It remains 
one of the most important aspects in controlling trafficking as the 
seizure of assets of traffickers and trafficking profits will increase 
the cost to traffickers. Corrupt government officials and legitimate 
actors facilitate trafficking in human beings and protect traffickers. 
Their role must be examined in terms of their involvement and the 
degree to which they can be held accountable in trafficking 
prosecutions.
    A number of policy measures were introduced in this research. These 
must be undertaken if governments are to be successful at combating 
trafficking and protecting victims. It is essential to raise awareness 
among the general population as well as other allies such as private 
industry. A comprehensive approach must address the supply and demand 
side of human trafficking, increase the cost and risk to traffickers 
while reducing the profits generated as a result of this crime. 
Finally, victim protection and upholding the rights of victims should 
be at the centre of any investigation.
    ``Preventing Trafficking in Human Beings for Labour Exploitation: 
Decent Work and Social Justice'', was the subject of our 2011 Alliance 
conference, leading to the publication of An Agenda for Prevention: 
Trafficking for Labour Exploitation \17\ together with our 2011 Annual 
Report. The paper identifies a set of concrete and feasible measures, 
to be implemented both in countries of origin and destination to 
prevent trafficking for labour exploitation. Such measures could form 
an integral part of the political agenda of governments, parliaments, 
governing judicial bodies, the private sector, and civil society 
organizations. I have advocated for their adoption during country 
visits and on the occasion of meetings with government authorities of 
the OSCE participating States.
---------------------------------------------------------------------------
    \17\  Organization for Security and Co-operation in Europe, An 
Agenda for Prevention: Trafficking for Labour Exploitation (Vienna, 
2011), http://www.osce.org/cthb/86293, accessed 1 September 2013.
---------------------------------------------------------------------------
    People seeking a better job and finding themselves in a situation 
of social vulnerability and trafficking--be they irregular/regular 
migrants or people who are vulnerable for different reasons such as age 
or disability or discrimination--should be seen first and foremost as 
workers. They would not fall prey so easily to traffickers if they were 
granted a decent salary and decent working and life conditions. They 
are not only men but also women, looking for better opportunities 
abroad to support their families and ensure education and health care 
for their children. They are children trying to reach a country where 
they hope to find a gainful job and subsequently reunite their family. 
Irrespective of their migration status, they should be considered 
rights holders as workers whose rights must be protected and promoted.
    Furthermore, it is necessary to address not only immediate factors 
which cause or facilitate trafficking but a larger spectrum of 
exploitation, involving especially migrant workers. To this end, it is 
necessary to put in place tailored measures to respond to the different 
needs of workers, aimed at reducing their vulnerability to trafficking. 
In this light, trafficking should be considered as a severe form of 
exploitation of workers in a position of vulnerability, by debt bondage 
or threats or multiple dependency or psychological constraint.
    In 2011, I also organized an ``Alliance Expert Seminar on 
Leveraging Anti-Money Laundering Regimes to Combat Human Trafficking'', 
bringing together leading experts from the fields of law enforcement, 
international finance and human trafficking to discuss this issue. 
Investigative information shows a vast phenomenon of reinvestment of 
the proceeds of trafficking, especially in countries of origin. Money 
laundering is generally considered one of the common denominators of 
organized crime and the necessary interface between licit and illicit 
markets. Through money laundering, the proceeds of any illegal 
activities including trafficking in human beings are conveyed to the 
legitimate economic sector for business investments.
    The expertise shared at the seminar and subsequent research will 
allow us to publish our forthcoming Occasional Paper on Leveraging 
Anti-Money Laundering Regimes to Combat Trafficking in Human Beings. It 
provides an overview of human trafficking and anti-money laundering 
regimes and how they can interact, describing key issues and challenges 
for leveraging anti-money laundering regimes to combat trafficking as 
well as identifying existing good practices, tools, and resources to 
address the financial and business aspects of trafficking, and provides 
recommendations to relevant government agencies, NGOs, banks and 
businesses. In addition, the report includes several case studies of 
human trafficking and migrant smuggling that highlight existing 
challenges and practices, as well as a list of possible financial 
indicators of human trafficking activity.
    Our findings suggest that trafficking in human beings and money 
laundering share several important interfaces, and that efforts to 
combat trafficking could be significantly enhanced through increased 
and improved use of the already-available detection, investigation, co-
operation, and confiscation tools that are a part of anti-money 
laundering regimes. By increasing co-operation between agencies, 
institutions, and professionals that focus on trafficking in human 
beings and money laundering and facilitating the sharing of expertise 
and information, national authorities can significantly improve their 
capacity to identify and explore new information sources and 
investigative techniques to target and confiscate the criminal proceeds 
that drive the business of trafficking in human beings.
    However, there is currently a significant disconnect between anti-
trafficking and anti-money laundering efforts in most jurisdictions, 
and significant need for more effective use of key anti-money 
laundering elements such as financial investigations of human 
trafficking cases, identification and analysis of trafficking-related 
suspicious transaction reports, and effective inter-agency co-operation 
between financial intelligence units and law enforcement agencies. The 
national legal framework to facilitate effective and timely 
identification, reporting, and response to suspicious financial 
activity related to trafficking is lacking in many jurisdictions and 
there is a shortage of financial expertise in law enforcement agencies. 
International co-operation on financial and other aspects of human 
trafficking is often slow and limited.
    The report lays out existing good anti-money laundering practices, 
tools, and resources to combat human trafficking, as well as relevant 
cases studies, that were identified by practitioners. These practices, 
tools, and resources include secure platforms for international 
information sharing on trafficking and money laundering-related issues 
between law enforcement agencies and between financial intelligence 
units, useful legal tools and typologies by international 
organizations, investigation, co-operation, and enforcement procedures 
by law enforcement and prosecution agencies, and advanced detection and 
analysis methods of financial institutions to identify and report 
suspicious human trafficking activity.
    The 12th Alliance conference ``An Agenda for Prevention: Non-
Discrimination and Empowerment,'' inspired my Office to produce a paper 
looking at discrimination as both a root cause and a consequence of 
human trafficking. The conference paved the way to better identify 
linkages between trafficking in human beings and various aspects of 
discrimination, and to explore how anti-trafficking and anti-
discrimination measures can enhance each other.
    The document presents main issues and challenges discussed during 
the conference, by also highlighting and further exploring some of 
them. It also provides a short overview of the legal framework of the 
non-discrimination principle underscoring its correlations with the 
anti-trafficking principle. Definitions of the main forms of 
discrimination are provided to ensure a common understanding of the 
concepts employed throughout the document. The paper presents a set of 
recommendations aimed at improving legislation, policies and practices 
addressing multiple and intersectional discrimination and trafficking, 
and their correlations.
    I have also issued several noteworthy papers this year. The first, 
Policy and legislative recommendations towards the effective 
implementation of the non-punishment provision with regard to victims 
of trafficking,\18\ provides specific legislation and policy guidance 
on the non-punishment principle, making it easier to implement this 
difficult concept in practice. The non-punishment principle has been 
solemnly affirmed in OSCE commitments since 2000 and it has become a 
legally binding obligation for all those OSCE participating States who 
are parties to the Council of Europe Convention on Action against 
Trafficking in Human Beings and/or are members of the EU.
---------------------------------------------------------------------------
    \18\  Organization for Security and Co-operation in Europe, Policy 
and legislative recommendations towards the effective implementation of 
the non-punishment provision with regard to victims of trafficking 
(Vienna, 2013), http://www.osce.org/cthb/101002, accessed 2 September 
2013.
---------------------------------------------------------------------------
    However, evidence to date confirms that victims of trafficking in 
human beings are routinely punished (through administrative detention 
and the imposition of fines amongst other means) and prosecuted 
throughout the OSCE region for crimes which were committed as a direct 
consequence of their trafficking, such as for immigration offences, the 
use of false documents and drug cultivation. This current situation 
represents a very stark violation of the human rights of victims and 
frankly speaking, one of the most appalling injustices.
    It is well established that victims of trafficking in human beings 
stem from the most vulnerable sectors of society; victims are 
frequently discriminated against, experience socio-economic 
marginalization, are exploited, without social protection. That these 
same persons should be tried for crimes committed while in a state of 
exploitation only serves to lengthen their ordeal and in many cases to 
threaten their personal safety and liberty as well as to gravely 
diminish their future prospects of rehabilitation and social inclusion. 
The starting premise of all efforts to combat human trafficking must be 
the full protection of the human rights and dignity of victims.
    Torture is another aspect of human trafficking that has received 
very little attention. In order to raise awareness of this terrible 
human rights violation, we issued the Occasional Paper Trafficking in 
Human Beings Amounting to Torture and other Forms of Ill-treatment.\19\ 
It is the first time, and hopefully not the last, that we developed and 
issued a research paper in partnership with other institutions, to 
study both the clinical and legal aspects of this problem. I am very 
proud that with the Ludwig Boltzmann Institute of Human Rights (BIM), 
and the Helen Bamber Foundation we were able to partner with two 
institutions of long-standing expertise and excellence on such an 
important topic. I see it as my responsibility to ensure that 
trafficking in human beings is understood in all its complexity, and to 
deepen this understanding by demonstrating how it is connected to other 
human rights violations, including torture and other forms of ill-
treatment. In particular, it is my duty to denounce and condemn the 
practice of torture as a method used by traffickers to subjugate, 
control and exploit victims of trafficking in all its forms.
---------------------------------------------------------------------------
    \19\  Organization for Security and Co-operation in Europe, 
Trafficking in Human Beings Amounting to Torture and other Forms of 
Ill-treatment (Vienna, June 2013), http://www.osce.org/cthb/103085, 
accessed 2 September 2013.
---------------------------------------------------------------------------
    This research shows indeed very well the extent to which 
trafficking in human beings is associated with violence and human 
suffering, such that we can compare it and even consider it to be a 
form of torture. This association clearly indicates that THB is not 
only a violation of human rights, is not only a crime, it is also 
something whose existence is unbearable, against which it is necessary 
to mobilize moral resources, as in the case of historical slavery. It 
also suggests, in my view, new criteria to enhance political will 
against both trafficking and torture, and new means to provide victims 
with additional protection such as reparation which includes not only 
compensation but also rehabilitation and satisfaction.
    I am convinced that the findings of this paper will provide 
important guidance to state actors, civil society and the international 
community, to contribute to the improvement of relevant policy and 
practice, and critically to afford justice to victims of human 
trafficking. I look forward to continuing to work closely with 
governments, parliaments, law enforcement, the judiciary, the medical 
profession, civil society, academics, and international organizations 
to prevent and combat trafficking through an approach rooted in the 
rule of law and human rights.
    The role of human trafficking in the global organ trade is another 
area that has received little attention in the past. For this reason, I 
issued our Sixth Occasional Paper, Trafficking in Human Beings for the 
Purpose of Organ Removal in the OSCE Region: Analysis and Findings.\20\ 
To the best of our knowledge, this is the first research paper based on 
an analysis of available case studies in the OSCE region.
---------------------------------------------------------------------------
    \20\  Organization for Security and Co-operation in Europe, 
Trafficking in Human Beings for the Purpose of Organ Removal in the 
OSCE Region: Analysis and Findings (Vienna, June 2013), http://
www.osce.org/cthb/103393, accessed 2 September 2013.
---------------------------------------------------------------------------
    Trafficking for the purpose of organ removal is included in the 
United Nations Palermo Protocol on Trafficking of 2000 in its 
definition of trafficking in Article 3, but in fact this form of 
trafficking remains one of the most unknown and least addressed. In 
recent years however, we have seen an increase in attention to the 
subject, in part due to several high profile cases within the OSCE 
region, as well as due to the long-standing efforts of investigative 
journalists, academics and victim advocates who have gone to great 
lengths to shed light on this phenomenon.
    Like all other forms of trafficking, it is a violation of the 
fundamental human rights and dignity of individuals, while also clearly 
representing a grave form of transnational organized crime. Our 
findings thus far confirm that very many countries are affected or 
involved in this form of trafficking in one of a myriad of possible 
ways, including as: countries of origin for victims, so-called brokers, 
traffickers, organizers, facilitators, and organ recipients, and/or as 
sites of transplant centres, clinics, or hosts of medical professionals 
such as anaesthetists, surgeons, nurses, nephrologists.
    Taking into consideration all of these different roles, I can 
report to you that over a third of the OSCE region has been affected or 
involved in some way in this form of trafficking. Our research findings 
confirm a trend that we see across the board in all cases of 
trafficking, that is, that there is an apparent shift in the modus 
operandi of traffickers away from hierarchical structures towards 
loosely structured but highly competitive networks. A further feature 
of this evolving modus operandi is a highly specialized division of 
labour.
    Persons trafficked for organ removal also face particular 
challenges, both during and after the organ removal, and hence we have 
devoted a special chapter to these issues. Victims are reported to 
receive small amounts of money, and in some cases, no payment at all. 
They are often unaware of the long-term and debilitating medical 
consequences of organ removal and lack of post-operative care as well 
as the psychological impact of the operation. Victims report strong 
feelings of shame and social stigmatization within their communities, 
which may contribute to a lack of access to medical and psychological 
care. Victims should thus receive compensation for the full impact of 
the crimes, including not only the immediate and chronic health 
consequences, but also the effects on their psychological well-being, 
as well as on their financial situation, or impacts on their livelihood 
and social integration.
    Another issue which I would like to call attention to is the link 
between trafficking for organ removal and corruption. We know that 
corruption is an important factor in all forms of trafficking. This is 
perhaps even more pronounced in cases of trafficking for organ removal 
because of the important role of ``white collar criminals''--here I am 
referring to the administrators, medical professionals and in some 
cases, official representatives whose contribution to the criminality 
is often essential in terms of accessing the certification, approval 
and medical equipment necessary to set up a transplant clinic. Thus I 
would say that the role of corruption is decisive in these cases.
    In February, I held a seminar in Rome on ``Co-operation to Prevent 
Trafficking in Human Beings in the Mediterranean Region'', focusing on 
human trafficking from the southern rim of the Mediterranean to Europe, 
with a particular focus on labour exploitation.
    The insightful presentations and discussions at this high-level 
event have allowed us to produce our forthcoming paper on Enhancing Co-
operation to Prevent Trafficking in Human Beings in the Mediterranean 
Region.
    Progressive tightening of migration policies in the northern rim of 
the Mediterranean, as well as the political instability in the southern 
rim, particularly in the aftermath of the so-called ``Arab Springs'', 
have fuelled the migration scenario in the region by increasing 
irregular flows of persons, especially from Tunisia and Egypt, in 
search for better living and working opportunities as well as 
international protection in the European Union.
    While issues relating to mixed migration flows \21\ in the 
Mediterranean Region have usually been considered in the framework of 
smuggling of migrants, recent research and investigations demonstrate 
that a strong linkage exists between migration processes and subsequent 
exploitation, both in intraregional migration flows as well as towards 
the northern rim of the Mediterranean. The stories of the victims 
provide evidence that migrants--men, women and children--including 
those entitled to international protection, find themselves in a 
situation of serious social and economic vulnerability, and often end 
up being obliged to work in extreme exploitative conditions, 
particularly in some sectors that are more prone to labour 
exploitation, such as agriculture, construction and domestic work.
---------------------------------------------------------------------------
    \21\  ``A movement in which a number of persons are travelling 
together, generally in an irregular manner, using the same routes and 
means of transport, but for different reasons. Persons travelling as 
part of mixed movements have varying needs and profiles and may include 
asylum-seekers, refugees, trafficked persons, unaccompanied/separated 
children, and migrants in an irregular situation.'' Also referred to as 
mixed movements or mixed migration. Source: UNHCR, Refugee Protection 
and Mixed Migration. The 10-Point Plan in Action, Geneva, 2012, p. 291.
---------------------------------------------------------------------------
    Our 2013 Alliance conference, ``Stolen Lives, Stolen Money: The 
Price of Modern-Day Slavery'' shed light on a range of financial, 
social and legal factors surrounding the ongoing debate on 
globalization, migration, inequality and trafficking.
    The conference explored the nexus between trafficking in human 
beings and salient aspects of the current debate on globalization, 
including the interconnection between human trafficking and 
inequalities, importantly those linked with migration, as well as the 
increasing use of unpaid work to foster the illicit accumulation of 
wealth, which is at the core of contemporary slavery.
    The conference also highlighted the economic, social and political 
costs of modern-day slavery both in terms of the violation of human 
rights and dignity of trafficked persons, and in terms of disruption of 
healthy and legitimate businesses, massive tax evasion, corruption, and 
erosion of the rule of law. It explored how the approach of global 
justice can contribute to defining a comprehensive strategy to tackle 
trafficking in human beings as an increasingly structural component of 
our societies and economies, to promote the rule of law and a fairer 
distribution of resources at the national and international levels, and 
to identify a range of actions aimed at ensuring legal and economic 
empowerment, restitution, and compensation to trafficked and exploited 
persons.
    The publications and events I have just described illustrate how I 
have worked to promote a different perception of trafficking in human 
beings, highlighting the areas of domestic servitude, the trafficking 
business model, labour exploitation, non-discrimination and 
empowerment, the non-punishment provision with regard to victims of 
trafficking, trafficking amounting to torture and other forms of ill-
treatment, and trafficking for the purpose of organ removal. These 
documents also show how contemporary human trafficking has evolved into 
a phenomenon with so many dimensions where humans were treated like 
commodities in a cruel and degrading way. Often, such cases were hidden 
for a long time before being disclosed.

3. Legacy
3.1 Second wave of anti-trafficking action
    Now I would like to turn to the future, and what I have termed the 
new wave of anti-trafficking action which has a broader scope, is more 
fair and embraces an intersectional approach which places trafficking 
in a much wider socio-economic, cultural and political context. ``If 
during the `first wave' --started in the 1990s--the main concern was to 
distinguish trafficking from other related phenomena, such as 
smuggling, irregular migration or prostitution, today it is crucial to 
take into account the multiple forms of trafficking along with a broad 
range of related policies, from labour markets to migration and anti-
discrimination policies.'' \22\
---------------------------------------------------------------------------
    \22\  Organization for Security and Co-operation in Europe, 
Combating Trafficking as Modern-Day Slavery: A Matter of Non-
Discrimination and Empowerment (Vienna, 30 November 2012), http://
www.osce.org/cthb/98249, accessed 4 September 2013.
---------------------------------------------------------------------------
    This is a crucial and innovative shift, which is directed to 
unravelling the multiple linkages between trafficking and cross-cutting 
policies, especially in the field of migration, labour market 
regulations and labour rights, discrimination and child protection. 
This is essential to develop policies, which address those structural 
socio-economic factors that underpin exploitation and trafficking. 
These factors include the neoliberal policies that appear to have 
contributed to more poverty, more ``necessity-induced (international) 
migration and exploitative working practices'' \23\ and to the widening 
divide between the haves and the have nots. These factors also include 
issues of race, nationality and citizenship and their related legal 
frameworks, which may produce legally constructed dependencies and 
vulnerabilities. For example, restrictive immigration policies and 
citizenship laws can generate inequalities and discrimination 
especially of migrants and ethnic minorities, hence rendering these 
groups more vulnerable to abuse and exploitation. \24\
---------------------------------------------------------------------------
    \23\  Neil Howard, `It's easier if we stop them moving'. A critical 
analysis of anti-child trafficking discourse, policy and practice--The 
case of Southern Benin (December 2012), http://chd.sagepub.com/content/
19/4/554, accessed 4 September 2013.
    \24\  Organization for Security and Co-operation in Europe, 
Combating Trafficking as Modern-Day Slavery: A Matter of Non-
Discrimination and Empowerment (Vienna, 30 November 2012), http://
www.osce.org/cthb/98249, accessed 4 September 2013.
---------------------------------------------------------------------------
    This policy shift requires states to review relevant policies and 
legislation to recognize the unintended impact of certain policies, to 
develop more nuanced responses which acknowledge the complexity (and 
ambiguities) of people's lived realities of exploitation and 
trafficking, and which contribute to building and strengthening 
coherence with the goal of tackling exploitation and human trafficking. 
This also needs planning and co-ordination across various sectors of 
government and with key external stakeholders (e.g. civil society, 
private sector, international development organizations etc.) in order 
to design multi-packaged interventions, which act upon multiple 
structural contextual factors with a combination of measures. For 
example, it may be necessary to design economic policies targeting the 
informal and black economy, policies which are tailored to the economic 
sector and to the logics of production and marketing within that 
sector; as well as targeted policies to promote local development, 
legality and tolerance; these efforts should also include measures for 
legal counselling services for migrants, capacity building of outreach 
for rights awareness and basic health care, employment schemes 
targeting vulnerable groups etc. In other words, this means 
multidisciplinary policies, mainstreaming and complementing measures 
aimed at the prevention of exploitation and trafficking in other policy 
areas with a view to mitigating risk factors by strengthening the 
general protection of the law for vulnerable and marginalized groups.
    In conclusion, the challenges we face are related to the magnitude 
of trafficking in human beings as modern-day slavery, and a component 
of illegal markets generated by organized crime. This situation 
requires a proactive approach, aimed at detecting emerging threats for 
security at the global and regional level.
    Our common commitment should be to acknowledge that slavery still 
exists more than 150 years after your US President Abraham Lincoln 
issued the Emancipation Proclamation, and consequently to free the 
slaves. This means empowering trafficked persons and supporting them in 
their aspiration to take their lives and their destinies into their own 
hands.
    Today we know much more about the profile of traffickers, about the 
vulnerability of their victims and modus operandi of recruitment into 
slavery through fraud and deception, about billions of dollars of 
illicit profits and money laundering, about multiple sectors prone to 
exploitation, permanently changing routes, and numerous indicators 
helping to identify cases than we did in 2003 when the Action Plan was 
issued. Today we can say that we are proud of the Plan: its impact on 
capacity building in the OSCE region was crucial, and its 
recommendations were successfully applied in the vast majority of OSCE 
participating States, who replicated it, in accordance with the 
national context, in their National Action Plans and anti-
trafficking programmes.
    But no, we cannot feel satisfied because trafficking networks are 
never static, they develop new sophisticated tools to enslave men, 
women and children, to allow illegal money to enrich criminal networks 
through investment into legal economies that threaten the economic 
security of the participating States. They adapt their modus operandi 
to the changes in our legislation or in our migration policies. They 
follow the demand of the market and are on hand to provide the labour 
force where it is needed most urgently. And from the data we have, we 
can say that we, together, have to start a new chapter in addressing 
this global scourge.
    Finally, I would like to thank you again, the leadership and staff 
of the U.S. Helsinki Commission, for holding this important hearing, 
for your kind invitation to testify before you today, and for your 
dedication to this challenging issue.

                                 [all]
                                 
                                 
                                 
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
